<html>
<title> - [H.A.S.C. No. 110-10] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2008 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED TENTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                         [H.A.S.C. No. 110-10] 

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2008

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                         READINESS SUBCOMMITTEE


                          meeting jointly with

                    AIR AND LAND FORCES SUBCOMMITTEE

                                   ON

                 BUDGET REQUEST ON ARMY EQUIPMENT RESET

                               __________

                              HEARING HELD

                            JANUARY 31, 2007

                                     
            [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

43-750 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 

                                     



                         READINESS SUBCOMMITTEE

                   SOLOMON P. ORTIZ, Texas, Chairman
GENE TAYLOR, Mississippi             JO ANN DAVIS, Virginia
SILVESTRE REYES, Texas               WALTER B. JONES, North Carolina
LORETTA SANCHEZ, California          J. RANDY FORBES, Virginia
ROBERT A. BRADY, Pennsylvania        MIKE ROGERS, Alabama
JIM MARSHALL, Georgia                JOHN M. McHUGH, New York
MADELEINE Z. BORDALLO, Guam          HOWARD P. ``BUCK'' McKEON, 
MARK E. UDALL, Colorado                  California
DAN BOREN, Oklahoma                  ROBIN HAYES, North Carolina
NANCY BOYDA, Kansas                  FRANK A. LoBIONDO, New Jersey
CAROL SHEA-PORTER, New Hampshire     TOM COLE, Oklahoma
JOE COURTNEY, Connecticut            ROB BISHOP, Utah
DAVID LOEBSACK, Iowa                 CANDICE S. MILLER, Michigan
GABRIELLE GIFFORDS, Arizona          TRENT FRANKS, Arizona
ELIJAH E. CUMMINGS, Maryland         CATHY McMORRIS RODGERS, Washington

                                 ------                                

                    AIR AND LAND FORCES SUBCOMMITTEE

                   NEIL ABERCROMBIE, Hawaii, Chairman
JOHN SPRATT, South Carolina          JIM SAXTON, New Jersey
SOLOMON P. ORTIZ, Texas              HOWARD P. ``BUCK'' McKEON, 
SILVESTRE REYES, Texas                   California
ADAM SMITH, Washington               JEFF MILLER, Florida
MIKE McINTYRE, North Carolina        JOE WILSON, South Carolina
ELLEN O. TAUSCHER, California        FRANK A. LoBIONDO, New Jersey
ROBERT A. BRADY, Pennsylvania        TOM COLE, Oklahoma
JIM MARSHALL, Georgia                ROB BISHOP, Utah
DAN BOREN, Oklahoma                  MICHAEL TURNER, Ohio
HANK JOHNSON, Georgia                CANDICE S. MILLER, Michigan
JOE SESTAK, Pennsylvania             PHIL GINGREY, Georgia
GABRIELLE GIFFORDS, Arizona          CATHY McMORRIS RODGERS, Washington
KENDRICK B. MEEK, Florida            GEOFF DAVIS, Kentucky
KATHY CASTOR, Florida                W. TODD AKIN, Missouri
                 John Wason, Professional Staff Member
                  Doug Bush, Professional Staff Member
               Paul Arcangeli, Professional Staff Member
                Lynn Williams, Professional Staff Member
                       Ben Kohr, Staff Assistant


















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Wednesday, January 31, 2007, Fiscal Year 2008 National Defense 
  Authorization Act--Budget Request on Army Equipment Reset......     1

Appendix:

Wednesday, January 31, 2007......................................    45
                              ----------                              

                      WEDNESDAY, JANUARY 31, 2007
FISCAL YEAR 2008 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST ON 
                          ARMY EQUIPMENT RESET
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Abercrombie, Hon. Neil, a Representative from Hawaii, Chairman, 
  Air and Land Forces Subcommittee...............................     2
Ortiz, Hon. Solomon P., a Representative from Texas, Chairman, 
  Readiness Subcommittee.........................................     1
Rogers, Hon. Mike, a Representative from Alabama, Readiness 
  Subcommittee...................................................     3

                               WITNESSES

Boles, Maj. Gen. Vincent E., USA, Assistant Deputy Chief of 
  Staff, G-4, U.S. Army; Brig. Gen. Charles A. Anderson, USA, 
  Director, Force Development, Office of the Deputy Chief of 
  Staff, G-8, U.S. Army; Brig. Gen. Robert M. Radin, USA, Deputy 
  Chief of Staff for Logistics and Operations, U.S. Army Materiel 
  Command, U.S. Army; Thomas E. Mullins, Deputy Assistant 
  Secretary of the Army for Plans, Programs, and Resources, U.S. 
  Army; and William M. Solis, Director, Defense Capabilities and 
  Management Team, Government Accountability Office beginning on 
  page...........................................................     4

                                APPENDIX

Prepared Statements:

    Boles, Maj. Gen. Vincent E., joint with Brig. Gen. Charles A. 
      Anderson, Brig. Gen. Robert M. Radin, and Thomas E. Mullins    49
    Solis, William M.............................................    57

Documents Submitted for the Record:

    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:

    Mr. Abercrombie..............................................    77
    Ms. Castor...................................................    81
    Ms. Giffords.................................................    80
    Mr. Rogers...................................................    79
    Mr. Sestak...................................................    80
    Mr. Taylor...................................................    79
FISCAL YEAR 2008 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST ON 
                          ARMY EQUIPMENT RESET

                              ----------                              

        House of Representatives, Committee on Armed 
            Services, Readiness Subcommittee, Meeting 
            Jointly with Air and Land Forces Subcommittee, 
            Washington, DC, Wednesday, January 31, 2007.

    The subcommittees met, pursuant to call, at 10:00 a.m., in 
room 2118, Rayburn House Office Building, Hon. Solomon Ortiz 
(chairman of the Readiness subcommittee) presiding.

 OPENING STATEMENT OF HON. SOLOMON P. ORTIZ, A REPRESENTATIVE 
          FROM TEXAS, CHAIRMAN, READINESS SUBCOMMITTEE

    Mr. Ortiz. This hearing will come to order.
    This is a joint subcommittee hearing with the Readiness and 
Tactical Air and Land Forces Subcommittee on the Army's reset 
program.
    I thank our distinguished witnesses for appearing before 
this subcommittee today, and we are happy that you are with us 
this morning.
    We appreciate all the Army is doing to try to keep our 
soldiers equipped for combat. Reset means, for the civilians 
among us, what it will take to fix and resupply the Army so 
they are ready to fight.
    Since November 2001, the operations in Afghanistan, then in 
Iraq, have taken a significant toll on the Army's equipment. A 
significant portion of the Army's armored vehicles, trucks and 
aircraft deployed to combat are operating at a high operational 
tempo under very difficult environmental conditions.
    These factors, along with battle losses, are reducing the 
overall equipment readiness of the Army. To fix this, the Army 
has implemented the reset strategy, or repair, recapitalize and 
replace damaged and destroyed equipment.
    The Army must accomplish this program sufficiently in order 
to quickly restore the full equipment readiness of the Army. 
This committee understands the need for a successful reset. To 
that end, we authorized the full $17.1 billion requested by the 
Army to fund reset in fiscal year 2007 and also to catch up 
from previous years' shortfalls.
    Last week, General Schoomaker testified that the Army has 
obligated $10 billion of those funds. While I am pleased to 
hear that $10 billion has been obligated, my concern remains. 
Obligating money will pay for the work to be done, but it will 
not immediately fix the equipment.
    It is vital that the Army move as quickly as possible not 
just to obligate money or the funds for reset, but to also 
quickly re-equip units with new and repaired equipment for 
combat.
    In yesterday's Washington Post, General Speakes voiced 
concerns about the challenges the Army faces equipping units 
needed to support the five-brigade surge proposed by the 
president.
    We recognize that it will be difficult to fully outfit 
surging units, and we are also very concerned about the effect 
this additional equipment will have on reset and ultimately the 
Army's readiness.
    It is obvious that increasing from 15 brigades to 20 
brigades of combat equipment will put more equipment into the 
repair pipeline and reduce equipment in nondeployed units and 
prepositioning stocks.
    I hope our witnesses will discuss how the troop escalation 
in Iraq will affect the reset in both dollars and time, and 
what measures are being taken to mitigate these effects.
    We all understand how quickly you execute reset, actual 
repair and replacement, not how just quickly you pay for it, 
will determine how quickly the Army will be whole again and 
fully prepared for any challenges.
    Now I look forward to hearing your testimony. But before we 
hear our witnesses' testimony, I would like to ask my good 
friend from Hawaii for his opening statement and remark that he 
might have.
    Chairman Abercrombie.

   STATEMENT OF HON. NEIL ABERCROMBIE, A REPRESENTATIVE FROM 
       HAWAII, CHAIRMAN, AIR AND LAND FORCES SUBCOMMITTEE

    Mr. Abercrombie. Thank you very much, Mr. Chairman.
    Thank you all for being here today.
    As everyone is aware, the majority has changed in the 
United States House of Representatives. I can assure you, all 
of you, that when you hear the opening statements of Chairman 
Ortiz and myself that they are not pro forma.
    I hope everybody pays close attention to what is being 
said, because what is being said is what is going to be done, I 
can assure you. The days of rubber-stamping anything are over, 
especially when it comes to the expenditure of funds.
    I can assure you, as far as this chairman is concerned, 
that you never had any clear idea of what the phrase ``fiscal 
conservative'' means until you have seen what is going to take 
place here.
    The Army has been confronted for four years with the 
difficult task of providing and supporting the full range of 
equipment, helicopters, tanks, trucks, Humvees, unmanned aerial 
systems, counter-improvised-explosive-device (counter-IED) 
equipment and other equipment to its forces in Iraq and 
Afghanistan.
    Now we are told by the administration that it must quickly 
equip and support at least 17,500 personnel in addition. 
Meanwhile, equipment will continue to be destroyed and worn out 
as troops are sent to theater.
    This is in addition to equipping, supporting, manning and 
training those Army forces not deployed, rebuilding 
prepositioned equipment stocks to meet other contingency 
requirements, and funding and executing its modernization 
programs.
    We want to be assured, first, that our men and women will 
not be deployed into Iraq without having all the necessary 
equipment for them to, as safely as possible, accomplish their 
assigned missions.
    Second, we want to hear that the fiscal year 2008 request 
will include all known equipment requirements for fiscal year 
2008 that I have mentioned, including the $13.6 billion 
projected for reset in fiscal year 2008, as mentioned by 
Chairman Ortiz.
    No more supplementary budgets. No more phony budgets. 
Everything that you need to have that you know you need to have 
has to be in this budget. No more phony supplementary budgets 
from the Pentagon or the administration. Everything that you 
know you need to spend has to be given to us now.
    Thank you, Mr. Chairman.
    Mr. Ortiz. The chair recognizes the gentleman from Alabama, 
Mr. Rogers, who is sitting for the ranking member, Mrs. Davis, 
of the Readiness Subcommittee.
    If you have a statement, go right ahead.

 STATEMENT OF HON. MIKE ROGERS, A REPRESENTATIVE FROM ALABAMA, 
                     READINESS SUBCOMMITTEE

    Mr. Rogers. Thank you, Mr. Chairman.
    I would also like to thank Chairman Abercrombie and all the 
members of the Air and Land Subcommittee for joining us today, 
as we get an update from the Army on equipment reset plans.
    As we all know, the readiness of our troops, their training 
and equipment are critical to our national security and our 
success in the war on terror. It is imperative that our 
subcommittee work together to ensure that those needs are 
known, addressed, through a comprehensive and well-thought-out 
plan.
    According to the Government Accountability Office (GAO), we 
have provided $38 billion to the Army to repair, replace and 
modernize its equipment since 2002. We have been told that it 
will require as much as $13 billion per year to meet the Army's 
continued need for reset. We have also been told that the need 
will likely persist for years after our forces return home.
    Although funding is needed to reset the force, money is 
only part of the equation. Resetting the force is an enormous 
challenge. It is not clear to me that a comprehensive strategy 
has been developed to address a number of factors, such as 
depot capacity, workforce availability, industrial base 
support, building of equipment to the Iraqis and thoughtful 
management of prepositioned stocks.
    This issue is of particular interest to me not only for its 
importance to our national defense but also because one of our 
critical maintenance facilities, the Anniston Army Depot, is in 
my congressional district. I know firsthand its tremendous 
support that all the men and women that work there do for the 
military.
    To the witnesses, gentlemen, we appreciate your taking the 
time to come talk with us today, and I am very interested in 
hearing about the work of the reset task force.
    To Mr. Solis, thank you for being here today and for all 
the work you have done to support this committee. I look 
forward to hearing your observations and recommendations on 
this complex issue.
    Thank you, Mr. Chairman.
    Mr. Ortiz. Your ranking member I don't think is here with 
us today, Mr. Saxton, but we will allow for his statement or 
the statement from Mrs. Davis to be submitted for the record.
    No objections, so ordered.
    Today we have a panel of distinguished witnesses 
representing the Army and the Government Accountability Office 
who will address the Army's reset program.
    And our witnesses with us today is Major General Vincent E. 
Boles, assistant deputy of staff, G-4; Brigadier General--who 
soon is going to be promoted--Charles A. Anderson, director, 
force development, from the Office of Deputy Chief of Staff, G-
8; Brigadier General Robert M. Radin, deputy chief of staff for 
logistics and operation of the United States Army Materiel 
Command; Mr. Thomas E. Mullins, deputy assistant secretary of 
the Army for plans, programs and resources; and Mr. William 
Solis, director of defense capabilities and management team, 
from the Government Accountability Office.
    We are very happy to have you with us today.
    And, without any objection, all witnesses' prepared 
testimony will be accepted for the record.
    And, General Boles, welcome, and please proceed with your 
opening remarks. General Boles.

STATEMENTS OF MAJ. GEN. VINCENT E. BOLES, USA, ASSISTANT DEPUTY 
CHIEF OF STAFF, G-4, U.S. ARMY; BRIG. GEN. CHARLES A. ANDERSON, 
USA, DIRECTOR, FORCE DEVELOPMENT, OFFICE OF THE DEPUTY CHIEF OF 
STAFF, G-8, U.S. ARMY; BRIG. GEN. ROBERT M. RADIN, USA, DEPUTY 
CHIEF OF STAFF FOR LOGISTICS AND OPERATIONS, U.S. ARMY MATERIEL 
    COMMAND, U.S. ARMY; THOMAS E. MULLINS, DEPUTY ASSISTANT 
SECRETARY OF THE ARMY FOR PLANS, PROGRAMS, AND RESOURCES, U.S. 
ARMY; AND WILLIAM M. SOLIS, DIRECTOR, DEFENSE CAPABILITIES AND 
       MANAGEMENT TEAM, GOVERNMENT ACCOUNTABILITY OFFICE

            STATEMENT OF MAJ. GEN. VINCENT E. BOLES

    General Boles. Thank you, Mr. Chairman and the members of 
the committee. It is an honor to be here.
    Sir, on the Army staff, as the deputy G-4, we have a role 
in reset. The lead for reset in the United States Army is the 
G-8 and the force development. And at this time, General 
Anderson will read our opening statement, which we have all 
contributed to, because the G-8 does have the lead for reset, 
and we are all supporting that.
    And, sir, without an objection, I would have General 
Anderson proceed with the statement.
    [The joint prepared statement of General Boles, General 
Anderson, General Radin, and Mr. Mullins can be found in the 
Appendix on page 49.]
    Mr. Ortiz. Go right ahead, General.

          STATEMENT OF BRIG. GEN. CHARLES A. ANDERSON

    General Anderson. Good morning, sir. Chairman Ortiz, 
Chairman Abercrombie, Mr. Rogers, distinguished members of the 
committee, on behalf of the soldiers of the United States Army 
and the Army reset task force, we thank you for this 
opportunity to appear before you today to discuss resetting 
America's Army.
    Before I begin the remarks, I would like to thank the 
committee for their hard work in providing the $17.1 billion 
the Army chief of staff requested last summer for reset.
    My remarks today will be brief. I will cover three points. 
First, I would like to quickly define reset; second, I would 
like to update you on our progress in executing this $17.1 
billion; and last, and most importantly, to describe what this 
funding means to your Army.
    What is reset? Reset is a series of actions to restore a 
unit to a desired level of combat capability commensurate with 
future missions. There are three components to reset: repair, 
replace and recapitalization.
    Repair is a process that starts with an inspection followed 
by maintenance to the original technical specifications.
    Replacement is to buy new. It is to replace battle loss, 
washout vehicles and, in this case, Reserve component equipment 
that was left in the theater as part of theater-provided 
equipment (TPE).
    And last, recapitalization. Recapitalization improves 
performance capabilities or brings equipment back to zero 
miles, zero hours, to the original performance capabilities.
    Our execution of the $17.1 billion provided by this 
Congress is on schedule. The Army has already obligated $11.2 
billion. With regard to procurement, we have obligated $6.5 
billion, or 76 percent. And by the end of the month March, we 
will be above 95 percent. We are ahead of schedule with 
operation and maintenance and have obligated $4.7 billion, or 
55 percent.
    Why is this funding important to the Army? Tanks today are 
running at five times the program's rate; trucks, five to six 
times their program usage, and they are running, as you well 
know, with heavy armor; helicopters, five to six times their 
program usage.
    Reset, in simplest terms, will reverse the effects of 
stress on all our equipment. Your funding will reset 24 brigade 
combat teams--each brigade combat team has 4,000 soldiers and 
roughly 40,000 pieces of equipment--and the numerous supporting 
units that are returning from Iraq and Afghanistan.
    On-time funding that you have provided us has allowed us to 
synchronize resources and to increase the velocity and the 
effectiveness of reset. For instance, timely funding has 
allowed the depots to order repair parts in advance of 
equipment arrival.
    The 125 Stryker Brigade Combat Team, their equipment 
arrived from Iraq last week in Alaska. Their reset plan has 
them accomplishing their mission in 120 days. That is a two-
month acceleration. Just think, that commander on the ground 
has two more months that he can devote to training.
    On-time funding equals on-time equipment in the hands of 
soldiers so they may train and prepare for the next contingency 
or unexpected operation.
    As a point of comparison, our effort to reset equipment 
from the beginning of combat operations to the end of fiscal 
year 2006 has been roughly over 200,000 pieces of equipment.
    In fiscal year 2007, we will reset 117,000 pieces of 
equipment. That is over 550 aircraft, 1,700 track vehicles, 
39,000 weapons, and hundreds of thousands of pieces that we 
will be conducting maintenance at the field level.
    The Army is replacing and upgrading more than 50,000 pieces 
of equipment. We have dedicated $2.5 billion for Reserve 
component equipment that was left in the theater.
    Last, the total effect of reset takes time. It does not fix 
all the Army equipment shortfalls. Equipment that has been 
programmed for depot maintenance in fiscal year 2007 is not 
necessarily completed in fiscal year 2007. It depends on the 
equipment received, the lead time for parts and the extent of 
the damage. And it also depends on the type of equipment it is, 
for some equipment needs longer to reset than others.
    Reset costs for future years will depend upon several 
factors, such as the level of force commitment, the activity 
level of those forces, the amount of battle loss and 
excessively worn-out equipment.
    The Army expects the requirement beyond fiscal year 2007 to 
be above $13.5 billion annually. However, changes in factors 
such as the current plans to increase force levels in Iraq, 
will impact these requirements.
    In addition, due to the unprecedented stress placed on our 
equipment, reset funding is required for two years to three 
years beyond the cessation of the current conflict.
    Finally, as we look to the future, we sincerely appreciate 
your support, for we know that the reset of America's Army will 
place combat capability in the hands of forward commanders. It 
will allow our prepositioned stocks to be maintained at the 
highest level of readiness.
    And we have a long-term investment strategy in maintaining 
our equipment and extending its life beyond its current life 
span.
    To close, Mr. Chairman, on behalf of our soldiers, we 
greatly appreciate the tremendous support of the Congress in 
supporting requests for funding for reset and engaging in a 
continuing dialogue with us in this critically important area.
    The Army remains committed to applying resources 
aggressively, to maintain the best-trained, the best-equipped, 
fully manned, and the best-led ground force in the world.
    Equipping the Army on time with modern equipment builds 
solder confidence. And with soldier confidence comes their 
unyielding commitment that we so deeply admire and respect.
    Thank you for this opportunity to appear before you today. 
The other members of the panel will now introduce themselves. 
And we all look forward to answering your questions.
    [The joint prepared statement of General Anderson, General 
Boles, General Radin, and Mr. Mullins can be found in the 
Appendix on page 49.]
    Mr. Ortiz. Thank you, General.
    Mr. Solis, welcome back to----
    Mr. Solis. Thank you.
    Mr. Ortiz [continuing]. The committee. You may now proceed 
with your statement.

                 STATEMENT OF WILLIAM M. SOLIS

    Mr. Solis. Chairmen Ortiz and Abercrombie, Ranking Members 
Rogers and Saxton and members of the subcommittee, thank you 
for the opportunity to appear before you today to discuss the 
Army's equipping planning strategies for repair, replacement 
and modernization of equipment, collectively known as 
``equipment reset.''
    This is a complex, fluid and expensive undertaking by the 
Army. Today I will draw upon GAO's past and ongoing work 
related to equipment reset.
    My statement today highlights two issues: first, the 
ability to account for the reset appropriations, and the extent 
to which the Army's reset funding strategies target equipment-
on-hand requirements for units preparing for deployment.
    With regard to my first point, until fiscal year 2007, the 
Army had not tracked or reported reset expenditures, including 
execution dollars, in a way that confirms that funds 
appropriated for reset were expended for that purpose.
    With the enactment of the fiscal year 2007 appropriations 
act, Congress directed DOD to provide detailed accounting of 
obligations and expenditures by program and subactivity group.
    The Army has established a subactivity group for reset. And 
according to Army officials, beginning in fiscal year 2007 the 
Army has begun to track reset obligations and expenditures by 
subactivity group.
    While we believe this is a positive first step in the right 
direction, based on our preliminary analysis it remains to be 
seen whether the Army's reset tracking system will include 
sufficient detail to provide Congress with the visibility it 
needs to provide effective oversight.
    Regarding my second point, while the Army's equipment reset 
process is intended to reset equipment to meet the needs of 
units preparing for deployment, its reset funding strategies do 
not specifically target equipment-on-hand requirements among 
units preparing for deployment.
    According to the Army's fiscal year 2007 framework for 
reset, the goal of reset is to prepare units for deployment and 
improve next-to-deploy units' equipment-on-hand levels.
    However, since the Army's current reset process is based on 
resetting equipment that it expects to be returning to the U.S. 
in a given fiscal year and not based on aggregate equipment 
requirements to improve the equipment on hand levels of 
deploying units, the Army cannot be assured that its reset 
programs will sufficiently provide the equipment to train and 
equip deploying units for ongoing and future requirements for 
the global war on terror.
    Mr. Abercrombie. Excuse me, that is a long sentence. It 
kind of just rolled out there. Can you repeat that or say it 
again? I am not quite sure what you said.
    Mr. Solis. Okay. Since the Army's current reset process is 
based on resetting equipment that it expects to be returning to 
the U.S. in a given fiscal year and not based on an aggregate 
equipment requirement to improve equipment on hand levels for 
deploying units, the Army cannot be assured that its reset 
programs will provide sufficient equipment to train and equip 
deploying units for ongoing and future requirements for the 
global war on terror.
    In conclusion, we believe three things need to occur.
    First, the Army needs to complete its efforts to develop 
the appropriate accounting structure to track reset dollars.
    Second, at the micro-level, in examining funding requests 
for reset from the Army, the Congress, working with the Army, 
needs to determine what outcomes are expected, such as improved 
equipment on hand for deploying units or overall equipping 
requirements for modularity, and develop performance measures 
to track these outcomes.
    Third, and at the macro-level, the Army, working with the 
Congress, needs to determine what outcomes are expected with 
overall equipment funding, especially as it relates to the Army 
dealing with Army-wide equipment shortages and readiness 
shortfalls, and develop performance measures to track these 
outcomes.
    This concludes my oral statement. I will be happy to answer 
any questions.
    [The prepared statement of Mr. Solis can be found in the 
Appendix on page 57.]
    Mr. Ortiz. Thank you so much for your testimony.
    Now, I would like to ask General Anderson, the Army has 
received $35 billion for resetting the force, but readiness 
rates continue to decline.
    I am concerned that there is some disconnect between the 
priorities for reset and what is required for troops in combat. 
I know that in some cases equipment being reset is also 
upgraded to meet modularity requirements, but I would like some 
assurances that reset is not being used to advance modularity 
at the expense of unit readiness.
    Will you please talk about how you link reset with the 
needs of troops in combat and training for combat?
    General Anderson. Yes, sir. Sir, modularity in the Army has 
doctrinal implications, training implications, materiel 
implications. Also, it even has facility implications.
    But from an equipping perspective, modularity is 
transforming units to a standard design. The beauty of that is 
that you could go to the 30th Brigade in North Carolina 
National Guard and that heavy brigade combat team will look 
just like a heavy brigade combat team down in Fort Hood, Texas.
    So there is a lot of goodness behind that, because a unit 
could fight together. They have the same battle command 
architecture, the same type of equipment. So modularity is a 
fact of life in the Army today, and we have been moving out on 
that for several years now.
    Reset, though, is only one aspect of our entire equipping 
strategy. The reset dollars that Congress has provided us are 
targeting those units that come back. And it targets those 
units that come back in three areas.
    It replaces their battle losses. It replaces equipment that 
has been washed out. It will recapitalize items like tanks and 
Bradleys--increase a level of modernization for that outfit.
    It will also repair. They will repair equipment at the 
field site or repair it at the depots. But that $17.1 billion 
is dedicated to resetting that outfit. And the way we monitor 
that, we monitor it by the effect on the unit. And we have a 
reset scorecard for each brigade, and we battle-track to see 
what items of equipment they have inducted and when they get 
completed.
    Mr. Ortiz. Mr. Solis, do you have any thoughts on how 
combat requirements are translating into reset priorities?
    Mr. Solis. Well, there is not a direct connection. I mean, 
as the general said, it is one of the many pools of resources 
of equipment that the Army uses to equip deploying units. But 
there is not a direct connection between reset and necessarily 
deploying units going out the door.
    One of the examples I think I had in my statement is the 
fact that there is $2.3 billion being spent for the upgrade of 
Abrams and Bradley vehicles which will occur over the next 
couple or 2 years or 3 years.
    But I want to go back to what I was saying before in terms 
of outcomes. Modularity, filling back prepo sets, filling up, 
you know, equipment needs for deploying units are all important 
things.
    I think it is incumbent, though, to figure out what are the 
outcomes, where do you want to be, because there are a lot of 
demands that the Army has to fill, and they are short, 
probably, of money. They probably need some things in terms of 
future needs.
    But it is what are those outcomes that you want to achieve; 
are those outcomes in terms of deploying units, modularity, or 
whatever it may be.
    Mr. Ortiz. I don't want to take all the time. I want to 
allow members to ask questions.
    And now I want to yield to my good friend, Mr. Rogers, if 
he has any questions.
    Mr. Rogers. I thank the chairman.
    First, General, you used the phrase ``washed out'' just a 
minute ago, as opposed to being repaired. What is that phrase 
supposed to represent?
    General Radin. Congressman, I will take that one. A good 
example of what we are talking about here is the up-armored 
Humvees that are being both refurbed in Kuwait and sent back to 
Red River Army Depot for work.
    About 60 percent of the up-armored Humvees that come out of 
the theater right now that go back to the depot are beyond the 
ability to repair. We do inspections in Kuwait.
    If there is a certain level of work that we can do to get 
them back into battle, we repair them in Kuwait and return them 
immediately to the battle. And it is normally done by how many 
hours it is going to take. Four hundred hours' worth of work or 
less we will do in theater.
    Anything beyond that we will retrograde it to the depot. 
They will go, in this case, to Red River Army Depot. Now, as 
they start tearing the vehicle apart--because we do inspections 
in Kuwait before they are sent. As they start tearing the 
vehicle apart, they may find cracks in the frames or things 
like that and say we can just not repair this piece of 
equipment. And therefore, it becomes what we call a washout.
    For the up-armored Humvees, the ones that we retrograde 
back, about 60 percent of them are beyond our ability to 
repair. So over the past year we have washed out about 300 up-
armored Humvees back at Red River Army Depot.
    Mr. Rogers. So about 60 percent of the up-armored Humvees 
that you bring back wind up being washed out?
    General Radin. That has been our last year's experience. 
Those are the facts.
    Mr. Rogers. How much does this cost to bring those back to 
make that determination per unit? Do you have any idea?
    General Radin. We would have to take that for the record, 
Congressman. And off the top of my head, I just can't give you 
the transportation cost.
    But again, those vehicles are inspected in Kuwait before 
they go. Every vehicle is inspected. But it is an inspection of 
the vehicle together. As it goes through the assembly line and 
you start tearing it apart, you will find things.
    Another example, and Chairman Ortiz probably understands 
this and is familiar with this one. In our Special Technical 
Inspection and Repair (STIR) program for our aircraft, as we 
are doing our aircraft and taking them apart in our STIR 
program, 25 percent of them we identify that need depot-level 
work that we did not know when we first started the program.
    And it is, again, as you disassemble the piece of 
equipment, you find things that isn't available for you to see 
as the equipment is put together.
    [The information referred to can be found in the Appendix 
beginning on page 79.]
    Mr. Rogers. Okay. And in a statement earlier, you made the 
point that there were 1,700 track vehicles programmed for reset 
in this fiscal budget that you are proposing. What is that up 
from? What is the trend, say, from three years, four years, 
five years ago, I mean, were you resetting a year?
    General Radin. I do, if you would give me a second, please. 
I would tell you, and I have got facts that can go back to 
2005, 2006 and 2007.
    In a category that we call move and shoot, which is small 
arms, Bradleys, tanks, artillery pieces and wheeled vehicles, 
in 2005 we did about 20,000 pieces of equipment--19,252, but 
20,000 for our purposes. In 2006, we did 33,000 pieces of 
equipment. In 2007, we are scheduled to do 47,000 pieces of 
equipment. So we have seen a steady build over the years.
    Mr. Rogers. Well, what I am getting at is I am trying to 
determine--I know that we have really ratcheted up dramatically 
our efforts to refurbish these vehicles that are being chewed 
up in the desert.
    I am trying to determine how much more capacity we have 
with our current depot infrastructure. Do you think there is 20 
percent more capacity, 10 percent? Are we at the max? What is 
your opinion?
    General Radin. Congressman, that is a very complex 
question, and it is one that we have discussed, we, the Army, 
has discussed a lot.
    And I think the easiest way to talk about depot capacity is 
the fact that it is the ability to work all the work centers--
why don't you define it all the work centers--6 days a week, 20 
hours a day.
    But what we are doing in our depot capacity is that we have 
the capacity that we need to do our required work, our 
scheduled program, right now. In our depots, we are hiring this 
year an additional 1,300 employees across the depots.
    And I could tell you what we are doing at Anniston. I know 
that that is of interest to you. But those 1,300, that equates 
to about an 8 percent increase of the workforce. That eight 
percent increase is spread between permanent employees, 
temporary term employees and also contractors.
    Where we see that work being long term, we are doing 
permanent employees. Where we see a potential to it, we will 
either do a temp or a term or a contract. That is good 
financial business on our part.
    There are some shifts, like at Anniston, where the M-1 
transmissions are two 11-hour shifts, 6 days a week. The turret 
shop at Anniston: two shifts, 11 hours a day, 6 days a week. 
Small arms, same thing.
    At Corpus Christi Army Depot, the blade operation are three 
8-hour shifts, 7 days a week, so that blade shop for Chairman 
Ortiz is working 24 hours a day meeting those requirements.
    The avionics shop is the same thing, 24 hours a day, and 
the machine shop. And we can go through that for each one of 
our depots.
    Mr. Rogers. Well, you make the point that we are meeting 
our needs now. Is that just what you have to do immediately? Do 
you think that we have got the infrastructure to meet our needs 
going forward?
    Because we know this equipment, and by your own opening 
statement, is being taxed at a much higher rate than it was 
programmed. It seems to me there is going to be a huge wave of 
work coming, and I am concerned that we don't have the depot 
infrastructure in place to meet the demands going into the 
future.
    Also, as we look at what Secretary Gates referenced a 
couple of weeks ago before this committee, that we are about to 
dramatically increase our end strength, that is going to 
require a commensurate amount of equipment to go online.
    So I just ask, when you look off in the horizon, do you 
think we have got the infrastructure that we need to meet our 
future demands in reset?
    And I will end with that, Mr. Chairman.
    General Radin. Congressman, as we plan out the 2007 
program--and we have a finite level of detail that shows the 
program for this year--we see the peak in the March-April time 
frame for the reset activities.
    And yes, we have the capability to meet the peak for this 
year, which is the March-April time frame. And a lot of that is 
tied to when units are redeploying, frankly.
    But also, for additional capacity, we have the public-
private partnerships that I am sure you are familiar with. At 
Anniston, we do a public-private partnership with General 
Dynamics for our tanks. At Red River, we do a public-private 
partnership with BAE that we do for Bradley fighting vehicles.
    We leveraged those partnerships and we have developed them 
over the years to give us additional capacity, and there is 
also contractual capability. So we will leverage both in-house 
work, public-private partnerships where we are doing--shared 
between us and a contractor, and a contractor to meet the 
future beyond 2007.
    But as we see up through 2007, we have the capacity that we 
need to meet the requirement. And again, from what we have 
planned out, it appears to peak in the March-April time frame 
this year.
    Mr. Ortiz. Chairman Abercrombie.
    Mr. Abercrombie. Mr. Solis, the information we have is that 
the Army will require at least two years or three years after 
forces completely withdraw from Iraq and Afghanistan, if you 
can imagine that, that it will have funding requirements to try 
and meet this recapitalization, repair and replacement years 
after the withdrawal.
    So that implies to me that we have got very serious 
expenditure problems right now, because this withdrawal is not 
even remotely contemplated at the moment, complete withdrawal.
    These costs are estimated right now by the Army at about 
$13 billion a year for what they say has to be expended for 
their reset activities.
    Now, the excuse being given is that because they are war 
related that a majority of these costs have to be put into 
supplemental budgets, as if we had no capacity whatsoever to 
understand what the replacement costs might be, that we have 
got no track record to take a look at, that we don't have any 
idea about what the lifetime of a piece of equipment in the 
desert or in the mountains in Afghanistan might be.
    And if they had to put the funding for all this equipment 
replacement or recapitalization, et cetera, into a big budget 
that the budget would have to increase proportionately, the 
budget that we have to deal with, the budget that actually goes 
when we try to explain to the American people what our 
indebtedness is, how much the war actually costs.
    In that context, there are several reporting requirements 
that have been put into various budgets, the regular budget, 
the so-called supplemental budget. There is the Defense 
Authorization Act for 2007. It requires the Army to prioritize 
equipment reset as a top-tier funding requirement.
    There is section 323 of the John Warner Defense 
Authorization Act. It requires the secretary of defense to 
prioritize in each year all military services equipment reset 
as a top-tier funding priority.
    The Supplemental Appropriations Bridge Fund in the John 
Warner defense authorization includes $23 billion for the Army 
and the Marine Corps reset.
    We have all of these requirements about prioritization and 
priority setting, and I can't figure out where it is. Can you 
help me?
    Mr. Solis. In the baseline, there is a baseline account for 
equipment. That exists today. There are also, in the 
supplementals, accounts which list, you know, money being 
requested for reset.
    Those are the two that I am aware of. I am not aware of any 
other sources of funding other than what is in the regular 
budget and the supplementals.
    Mr. Abercrombie. But how is it being accounted for? Let me 
give you a for instance. If you have theater-provided 
equipment, okay? Theater-provided equipment. Let's talk about 
like wheeled vehicles. The armor was already mentioned here. 
You have Humvees, up-armored Humvees, et cetera. Okay?
    Right now, at least in some of the committee experiences I 
have had recently, there is a process known as cross leveling. 
Are you familiar with that?
    Mr. Solis. Yes.
    Mr. Abercrombie. Okay. For those who aren't, you transfer 
equipment from one unit to another. I can't figure out, and I 
don't have accurate understanding, if you increase the theater-
provided equipment, which I presume, at a minimum, is going to 
occur if there is this so-called surge in Iraq, let alone what 
is now being proposed for Afghanistan, doesn't that have a 
major impact on the Army's reset strategy both in execution and 
its fiscal requirements?
    And if it does, how is that reflected in this budget 
request?
    Mr. Solis. Well, eventually, it could. I can't tell you in 
terms of the budget request specifically how the surge is in 
there. But I can tell you that eventually it may have some 
financial impact.
    Mr. Abercrombie. Okay.
    General Anderson, can you enlighten me?
    General Anderson. Yes, sir. When a unit deploys, there are 
multiple sources of equipment for that unit when it deploys. It 
brings its organic equipment with it. It falls in on theater-
provided equipment. There is an option for prepositioned stocks 
as well.
    But that theater-provided equipment sometimes is going to 
have to come back. You know, with cessation of conflict, we are 
going to want this equipment back.
    In fact, theater-provided equipment is not additive. It is 
calculated as part of our on-hand balances, and we desperately 
would like to have that equipment back.
    Mr. Abercrombie. That is in the context of what is called 
reset and payback, then, right?
    General Anderson. In the context of payback, we have $2.5 
billion for the Reserve component for their equipment that they 
have in theater because we don't know how long that TPE is 
going to be there.
    We don't know how long it is going to be there, and we want 
to get that equipment back into the hands of the governors and 
the The Adjutant Generals (TAGs) so they can do homeland 
defense, homeland security.
    And we also are calculating that if TPE, about 15 percent 
of that equipment will probably be washed out, is going to have 
to be replaced. The other 85 percent, hopefully we want to 
retrograde that back at the cessation of the conflict.
    Mr. Abercrombie. I have heard the word ``hopefully", and I 
have heard the way the verbs are coming.
    General Anderson. Yes, sir. Well, sir, we are counting on 
that equipment, and we are counting on getting that equipment 
back.
    Mr. Abercrombie. What is your record so far?
    General Anderson. Sir, even in the face of the surge, we 
continue to retrograde equipment. I would like to pass it over 
to General Radin, who works the retrograde, but just an example 
of how well we have done on retrograde this year, the 101st 
Airborne Division----
    Mr. Abercrombie. You know, General, because of the time, I 
will take your word for it.
    General Anderson. All right, sir.
    Mr. Abercrombie. You can submit it as an example, if you 
would, to the chair.
    General Anderson. All right, sir.
    [The information referred to can be found in the Appendix 
beginning on page 77.]
    Mr. Abercrombie. My principal point here is whether you are 
talking about modularity, whether you are talking about reset 
as an overall goal, and within the context of having to do all 
of the repairs, et cetera, it is not clear to me how these 
priorities you are setting in terms of the budget--does this 
2008 budget take all that into account, or will there have to 
be another supplemental approach?
    General Anderson. Sir, we follow OSD's guidance, and the 
requirements that we have identified I believe will come forth 
as part of the president's budget.
    Mr. Abercrombie. Nice try. Thank you very much.
    Mr. Ortiz. Mr. Saxton.
    Mr. Saxton. Thank you, Mr. Chairman.
    And thank you, gentlemen, for being here today. Let me try 
to express our perspective. When we decided in 2006 that we 
wanted to provide every nickel that the Army asked for, and 
which we did for reset, we were under the impression, and still 
are today, that the depot system had the capacity to carry out 
the reset activities.
    As a matter of fact, I still remember sitting here in this 
room and seeing five little thermometers, which you probably 
all saw, on a piece of paper which demonstrated to us that we 
were using about 50 percent of capacity across the board in the 
depots.
    So I think what the questions have been about today--and 
forgive me for being so simple--is, is that capacity today 
being utilized to the extent that we get to the goal that all 
of us want to get to vis-a-vis the billions of dollars that we 
have made available to the Army?
    General Radin. Congressman, the depot programs are loaded 
to meet the reset requirement in the time lines of the 
redeploying forces for this year. Out of the forces that we 
have deployed, about one-third of them have redeployed for this 
year, and their equipment is in the depots and being reset.
    As we look at the plan for the program, we have the 
capacity to meet the equipment that needs to be reset. And 
again, I see a peak in the March-April time frame, as we have 
scheduled out this work.
    I have been in my current job for 16 months now. I got to 
see how we did it last year. I got to see how we do it this 
year.
    I would tell you the significant difference between last 
year and this year is the early funding that you all provided 
us that has allowed the depot commanders, the ones that really 
have to execute this program, and the depot workforce, to see 
their program for the entire year and be able to plan for, 
order the parts and execute those programs.
    Our repair cycle times for equipment is dropping. We are 
able to them faster than what we have done. Perhaps you read 
some of the articles, one of them was in Time magazine, of our 
depot programs winning the Shingo Award, fourth Shingo Award, 
and we have the DOD Depot of the Year this year in Red River 
Army Depot.
    So, Congressman, I can assure you that the workload that we 
see for this year we have the capacity and the capability to 
execute what we have got scheduled and what you all have funded 
us for.
    Mr. Saxton. General, you have been there, you said, for 16 
months? Tell us a little bit about the process as you saw it 
when you first got this job and the process as it exists today 
as you see it.
    In other words, there were activities that I would 
generally describe as ramping up the process that I would think 
you would have had to have gone through during that period of 
time. Is that the case?
    And in fact, do you see an appreciable difference in 
capability and capacity to do the job today as opposed to the 
lower capacity that may have existed when you first took this 
job?
    General Radin. Congressman, I think the biggest difference 
that I see between last year and this year is if you think of 
the depot commanders who are executing these programs, last 
year we started with a bridge supplemental. We went through 
almost three-quarters of the year where we had the main 
supplemental.
    So the depot commander really didn't get full insight into 
what his program was going to be until the late spring time 
frame.
    It is very difficult as a depot commander--you know, he 
commands it but he also manages the programs there--to be able 
to schedule his work and figure out what he needs to do with 
his workforce in order to meet that requirement, because, you 
know, you are halfway, three-quarters of the way through the 
year before you get insight into what your full program is.
    With the loading of the $17.1 billion at 1 October this 
year, the depot commanders are, I would say, 6 months ahead on 
their program of understanding how it is going to execute this 
year.
    I have seen the individual shops increase in workload and 
capacity, yes, I have. I talked about the hiring program that 
we are going to do this year to meet those requirements.
    The first thing that a depot commander does, and which has 
allowed them to do this year, is to reshift his workforce to 
meet what he can with the workforce that he has.
    If you have got a mechanic that works on track vehicles and 
he was doing recovery vehicles, and you don't see the program 
developing this year that needs recovery vehicle work, the 
first thing you do is see if he can work on tank work, and then 
you shift him over to that one.
    That is the significant difference between last year and 
this year, and in my personal estimate I think we are about six 
months ahead of where we were last year in our program and 
being able to see it, execute, order the repair parts, get the 
repair parts so that they are on hand as the equipment comes 
in.
    And in Army materiel command, we are focused on looking 
four months out and being able to effect the end item and the 
repair parts to have them on hand to do the work.
    Mr. Saxton. Thank you.
    One final question, Mr. Chairman.
    Based on lessons learned from the process that we have been 
through, looking ahead, what do we need to do different, both 
in terms of the process here on Capitol Hill and in terms of 
the process on the depot level?
    Are there things that we have learned that we need to try 
to do differently in order to make it possible for you all to 
do your job more effectively?
    General Radin. Congressman, the first one that I would tell 
you is, again, thank you for this year's program, the early 
funding. It is critical.
    And I think the one thing from the Hill is to do the same 
thing from Congress, and that is the early funding of the 
programs. You know, if we can get it at the beginning of the 
fiscal year, we are much more efficient. That is the first one.
    From Army Materiel Command's perspective, we have learned a 
lot of managing these programs this year that we will be able 
to leverage into the future. We have put in place repair parts 
program management working with Defense Logistics Agency, which 
is one of our sources of supplies.
    Our item managers that we do within Army Materiel Command 
and with our contractors and our public-private partnerships--
again, this year we are executing programs and we are effecting 
them four months before the work actually gets done. I cannot 
say we were doing that last year.
    Mr. Saxton. Thank you.
    Thank you, Mr. Chairman.
    Mr. Ortiz. Ms. Castor.
    Mr. Cole.
    Mr. Cole. Thank you very much, Mr. Chairman.
    Just a couple of questions, because I agree very much with 
my friend from Hawaii about the need, whenever possible, to 
avoid supplementals and to work through the regular budget 
process. I think we all think that is more efficient. We do a 
better job.
    But we also recognize war is a pretty uncertain business, 
and certainly when we began the one that we are involved in 
now, I don't think anybody envisioned it would go on this long 
or we would have this force level that we currently have, 
certainly in Iraq, or that we would go through equipment at the 
speed that we are.
    So without asking you to make a forever judgment, General 
Anderson, or wherever you would prefer the question be 
answered, I mean, how possible is it in the state that we are 
involved in now for us to get to the point where you wouldn't 
need a supplemental, where you could foresee your needs well 
enough to anticipate something like a surge, well enough to 
obviously anticipate a longer stay at a greater level than we 
ever intended?
    General Anderson. Yes, sir. Sir, that is a very good 
question. The reset and the dollars that are required for reset 
have so many variables. It depends on the type of units that we 
deploy, whether they are heavy or they are light units.
    It depends on the duration that unit is in the theater. It 
depends on deployment schedules, redeployment schedules. It 
depends on battle loss, washouts. There is so many variables. 
We enjoy the predictability that a base budget provides you. It 
provides you predictability.
    But we will continue to identify requirements. This task 
force here will continue to project requirements based upon 
reset and follow the OSD's guidance on those, if that answers 
your question, sir.
    Mr. Cole. It does. It gets at the key problem. I have 
certainly got Fort Sill in my district. We don't have any 
procurements or depot-type operations, but I do have Tinker Air 
Force Base. It is a different service, but a similar problem, 
in that they have to anticipate surges and aircraft being used 
in ways they never anticipated it being used. Just a tough 
thing to do.
    I don't know if you can ever fully get to where you could, 
you know, particularly in a time of conflict, get through it 
without the ability to adjust someplace along the way. Is that 
a fair statement?
    General Anderson. Yes, sir. It is a running estimate and, 
you know, this surge will have an impact.
    Mr. Cole. By the same token, I want to ask Mr. Solis a 
question, if I may.
    You pointed out in your testimony or mentioned in your 
testimony--you probably need to educate me on this--that until 
2007 the Army did not have a system whereby you could 
adequately track reset dollars and really know where they were 
going.
    What was the problem before then and what have we done 
since then to address that?
    Mr. Solis. Well, there wasn't a requirement to do it, first 
off. In 2007 there was a more specific requirement, as I 
mentioned in my testimony. I don't know that there was anything 
technically that prevented the Army from doing it, but there 
was no requirement to do it.
    Mr. Cole. And Congress hadn't asked the Army to do it, had 
they?
    Mr. Solis. No, that is correct.
    Mr. Cole. As much our failing as the Army's, probably, 
because we have an oversight--I won't ask you to comment on our 
failings, but you would be here a lot longer than you need to 
be.
    One last question. Again, I want to go back to a question 
that was raised earlier: the surge. Because I have read some of 
the articles, too, that raise questions about whether or not we 
have the ability to fully equip the units that we are sending 
in. And, you know, we are certainly doing a certain amount of 
robbing Peter to pay Paul here that I think makes all of us 
uncomfortable.
    But are you confident that we have the ability to give 
those units, those young men and women, frankly, everything 
they need for the mission that we are asking them to do, and do 
so in a timely fashion?
    General Anderson. Sir, I will tell you, the number-one 
priority is to ensure our soldiers that goes into harm's way is 
equipped with our Nation's best equipment.
    We have looked at that equipment. We have identified what 
equipment they will have. These units will have the up-armored 
Humvees. That is the gold standard that comes off the assembly 
line. They will have the situation awareness devices, the 
counter-IED devices, crew-served weapons.
    Every soldier will have body armor just like the soldiers 
before them. They will get the RFI, that rapid fielding 
initiative. That is those 50 items, average of 50 items, that 
each soldier receives. So they are going to be properly 
equipped, and we are going to meet the requirements.
    But we do have one challenge. We have one challenge and we 
have to get some add-on armor for some medium and heavy 
tactical wheeled vehicles for them. I am not talking about the 
Humvees. I am talking about the big cargo-carrying supplies 
type trucks, and we are working that.
    Mr. Cole. I saw that on site. Oshkosh trucks were actually 
doing that on site for Marines. It was very impressive to see.
    General Anderson. Yes, sir. And, sir, in our plan right now 
for the medium tactical fleet is to get the add-on armor kits 
and put them right there on the assembly line. So by June, we 
will start delivering new trucks with the add-on armor kits.
    So what do they have to do in the interim? In the interim 
right now, there is about 7,000 heavy and medium tactical 
wheeled vehicles, the larger trucks, with add-on armor kits in 
the theater.
    Sir, they are going to have to cost level. And you have 
heard that. They are going to have to cross level to mitigate 
any shortages they have. But by June, we will start this 
delivery of these trucks.
    Mr. Cole. Just one last question, if I may, Mr. Chairman.
    Would we have your assurance, General, and your 
colleagues', obviously, if for some reason something happened 
and we were not getting those units what they needed, I would 
expect, know that from you immediately.
    General Anderson. Yes, sir.
    Mr. Cole. You would come back and tell us that.
    General Anderson. Yes, sir.
    Mr. Cole. Thank you. And I just want to thank you for your 
service to our country. Thank you very, very much for your 
wonderful job. Thanks.
    Thank you, Mr. Chairman.
    Mr. Ortiz. Ms. Castor.
    Ms. Castor. Thank you, Mr. Chairman.
    And thank you, gentlemen. I am going to ask a couple of 
questions wrapped into one.
    Mr. Solis, in your GAO report, you state, in part, that the 
Army continues to be faced with increasing levels of 
operational risk due to low levels of equipment on hand among 
units preparing for deployment.
    I would like you all, the panel, to comment on the 
particular pressures. Talk equipment, on equipment readiness 
and types of equipment for our brave men and women around the 
world that the escalation in Iraq that the president has 
announced--talk about the pressures on all equipment for our 
men and women around the world that this escalation is going to 
aggravate.
    Particularly, what is going to be the impact on our forces 
that are part of the NATO force in Afghanistan and troops under 
special operations missions?
    General Anderson. Ma'am, again, our number-one priority is 
making sure that soldiers deployed have all the equipment they 
need. And you are right, you know, units that are preparing to 
deploy--and after we do the surge, the units that are remaining 
back are going to have to cross level. We have been cross 
leveling for several years now.
    But with you all's funding, the funding that you all 
provided us, that Congress has provided us, we have improved 
our equipping position.
    Units that are in Afghanistan, units that are in Iraq, that 
are in harm's way have all had the equipment they need, the 
force protection equipment they need. They had the night vision 
capability, the body armor, the up-armored Humvees, all that 
equipment they need.
    The units that are surging, we have been equipping those 
units for some time now. They will deploy with the equipment 
like units before them did. We will ensure that they have all 
the equipment they need. And if they don't, we will report back 
to this Congress the shortage that they have.
    But right now, we are going to meet their requirements. And 
again, as I was mentioning with the heavy and medium fleets, 
those add-on armor kits, that is the only challenge we are 
having right now, and we are rectifying that.
    Ms. Castor. Well, with all due respect, General, please be 
more specific. I mean, I hear what you are saying, that the 
troops in the field are going to have everything they need, but 
we have also heard from folks like General Schoomaker who say, 
you know, this is a strategic risk, by surging in Iraq and 
escalating in Iraq, it puts pressures on the troops around the 
world, and readiness and troops in Afghanistan.
    And talk to me about, specifically, what will be lacking, 
how will our readiness suffer. What other equipment will other 
troops be going without because of the escalation?
    General Anderson. Troops going to war, ma'am, will have all 
the equipment that they need. It is the units that are back 
here in the training base, the units that are training, they 
are the ones that will have the holes. And the way we mitigate 
those holes is through several methods.
    One is new production. The items are coming off the 
assembly line.
    The second part is equipment maneuver. And for example, a 
unit deploys to either Iraq or Afghanistan, will draw up-
armored Humvees. They will leave equipment in their motor pool 
or back at their home station that they are not going to take 
with them, especially those light-skinned vehicles. Those 
vehicles, those soft-skinned vehicles, we will maneuver that 
equipment around to fill the holes of other units.
    Ms. Castor. And is that it, the vehicles? Can you be more 
specific?
    General Anderson. Well, the vehicles, ma'am, is the primary 
shortages that we have. That is the shortage that we wrestle 
with back here.
    Ms. Castor. And you have mentioned training of troops that 
are not deployed. What are the particular pressures there? What 
type of equipment?
    General Anderson. The shortage that we normally have are 
the tactical wheeled vehicles. There are some shortages that we 
will have with night vision capability and some thermal weapons 
sights. Those are night vision capability that we send forward 
to the war fight.
    Ms. Castor. Do the other panelists have a comment?
    Mr. Solis. One thing I would offer is that, when you look 
at the readiness reporting, certainly the nondeployed units are 
reporting very low levels of readiness for on-hand equipment.
    The deploying units, it gets a little bit more trickier, 
because they also have what they are measured against in terms 
of their direct admission. That appears to be all at very high 
levels of readiness, but that is a subjective rating, so we 
don't have a clear understanding of how necessarily that rating 
is achieved.
    Going beyond that gets into the classified arena, and I 
would prefer not to discuss that at this time.
    Mr. Ortiz. Mr. Sestak.
    Mr. Sestak. Thank you for the time.
    General, you had mentioned earlier that your number-one 
concern is making sure that our men and women going into harm's 
way are well-prepared, and I am sure that your concern is 
equally those that are having to be prepared to go somewhere, 
much like we had to for this war, or Afghanistan.
    Could you tell me, if you take all the existing brigade 
combat teams we have, and if you were to equip and man them 
equally, what percentage would they be manned at and equipped 
at?
    General Anderson. Well, sir, I am going to have to take 
that for the record or bring it back to you in a classified 
setting.
    Mr. Sestak. Would you be able to answer the question here, 
if you were able to equip and fully man all equipment and all 
brigade combat teams at 100 percent, how many brigade combat 
teams would be prepared at 100 percent out of the ones you have 
today?
    General Anderson. Well, that is equipped at 100 percent all 
the brigade combat units?
    Mr. Sestak. Yes, sir. If you were to take all your brigade 
combat teams and say I am going to go one by one by one and 
equip and man them all at 100 percent and man at 100 percent, 
how many of those would you be able to do that to?
    General Anderson. Sir, I would have to take that for the 
record.
    [The information referred to can be found in the Appendix 
beginning on page 80.]
    Mr. Sestak. In your testimony, you mentioned the APS and 
that you have used APS, Army prepositioning stocks, as you know 
better than I do, you used all five of them for Operation Iraqi 
Freedom (OIF) and Operation Enduring Freedom (OEF).
    But you also say that you have now reset them for modular 
design and that you have also now begun to reuse them again in 
order to have that equipment available for rapidly deploying 
troops.
    What is the impact on our overall readiness because of the 
APS squadrons from Korea across to Kuwait, APS-5, -3? What is 
the impact on our overall readiness and to be able to rapidly 
respond to a contingency?
    Because in your testimony you say that is why we have these 
APS squadrons, to rapidly respond to future contingencies.
    General Anderson. Yes, sir. Sir, we are very proud of our 
APS strategy.
    Mr. Sestak. You should be. But what is the readiness 
impact?
    General Anderson. Yes, sir. It is maintained at a high 
level of readiness. As you just mentioned, we have transformed 
those to a modular design that, really, has given us the 
capability to use them effectively----
    Mr. Sestak. Well, I understand that. What is the impact 
upon our readiness of the equipment now being used for our 
troops in Iraq?
    General Anderson. Sir, that discussion would have to be 
conducted in a closed session.
    Mr. Sestak. Is it an impact?
    General Anderson. Well, again, that would have to be 
discussed in a closed session.
    Mr. Sestak. One last question. Is it true to say that there 
is a new bill that still hasn't been brought forward by the 
Army, in the sense that we actually have had an impact 
shortening the useful service life of our equipment, even those 
that we reset?
    You know, an airframe only has so long to fly in its life. 
And you may reset that airframe, but is that a new pending bill 
that has yet to be brought forward or even figured out, 
particularly as you wait for FCS and other systems to come 
online 20-some years from now?
    General Anderson. Sir, I don't anticipate a new bill for 
the extended service life of equipment.
    Mr. Sestak. You have extended the useful service lives of 
this equipment?
    General Anderson. Well, recapitalization----
    Mr. Sestak. Does that.
    General Anderson. Yes, sir.
    Mr. Sestak. In all three categories: repair, replace----
    General Anderson. Recapitalization, sir.
    Mr. Sestak. So you have brought back an airframe and kind 
of zeroed it back so that, for every unit that goes to 
recapitalization, your useful service life is being zeroed.
    So if the Chinook was produced by Boeing and it had 25 
years, and you brought it back and reset it, every piece, its 
useful service life is reset to zero. That is quite a feat.
    General Radin. Congressman, I think----
    Mr. Sestak. Do you know what I am asking?
    General Radin. I think I do. And I think in some respects 
we are tripping over terms here.
    On the ones that we are doing the recapitalization, 
recapitalization programs--and the two that I can think off the 
top of my head, around three--M-1 set tanks, M-1 aim tanks, 
Bradley A3 versions for the recapped Humvees, those ones--those 
are being brought back to zero miles, zero hours. So the answer 
is, yes, we are bringing them back to like new condition.
    For the aviation STIR program that you are talking about, 
the Special Technical Inspection and Repair program, we are not 
bringing those airframes back to zero miles, zero hours, or, 
you know, zero blade hours. We are not.
    Mr. Sestak. So that is another bill that still has to be 
figured out in order to have the gap between their useful 
service life being more rapidly used, because you are flying 
them, as you said, much more rapidly, and the gap between 
bringing on your new future systems. I mean, it just makes 
sense.
    General Radin. I am sorry, I can't answer that one from the 
aspect of the procurement or the replacement of the equipment. 
I can tell it from the maintenance level that we are doing on 
that one.
    I don't know, Tom, if you----
    Mr. Sestak. All right.
    If you didn't mind, Mr. Chairman, if I could, if it was 
possible to get a classified brief, if that is what takes, for 
my first two questions, I would appreciate it.
    And if I could, I was just curious about this bill because, 
you know, as we do the $10 billion per year for the 92,000 more 
troops, you know, $13 billion from the Army alone plus $5 
billion from the Marines every year for reset, plus $6 billion 
for military construction, plus soon to be $14 billion per 
month for the war in Iraq as we get the new $100 billion from 
OMB in a week or two, and reset being done at $13 billion a 
year, I just wanted to know if this tragic misadventure in Iraq 
was going to cost us any other bills as useful service life was 
being taken care of.
    And the question that I think she asked, the real question, 
is it is not just Iraq. What is the real impact upon our 
overall strategic readiness for an Army that for so many years 
prided itself on being able to rapidly respond with APS and 
other units to new types of developing contingencies? That is 
the real tragedy of Iraq on our readiness.
    Thank you.
    Mr. Ortiz. Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    And first, I am going to offer an apology. As I was 
standing over there reading something else, I heard one of you 
gentlemen describe the up-armored Humvee as the gold standard. 
I would have to disagree with you.
    I appreciate that the up-armored Humvee is a substantially 
safer vehicle than a Humvee with canvas sides. But a 
disproportionately high number of American casualties are 
taking place in Humvees. And worse yet, the enemy has 
discovered the vulnerability of a Humvee to a land mine.
    And just as they discovered the vulnerability of a canvas-
side Humvee, I am sure that our enemies all around the world 
now via Internet know that the way to kill young Americans is 
to have a charge underneath that vehicle, the bottom of that 
vehicle--and this is coming straight from Lieutenant General 
Blum--actually acts to shape the charge to direct all of the 
energy into the cab, which is why drivers are killed, why 
gunners are thrown 20 yards, 30 yards. Sometimes they are lucky 
enough to live.
    With that in mind, what are you gentlemen doing to work 
toward a new generation of vehicles with something like a V-
shaped bottom? I have had a briefing from the Marine Corps--
because again, I don't say this happily, but I saw the Pentagon 
dragging its feet to get to up-armor.
    We know we have a vulnerability. Our enemies know we have a 
vulnerability. So what are you gentlemen doing to get us into a 
new generation of vehicles that are less vulnerable to passing 
over a land mind or an IED that is placed under the road as 
opposed to on the side of the vehicle?
    General Anderson. Yes, sir. Sir, my apology. The gold 
standard was just to differentiate between the----
    Mr. Taylor. I understand.
    General Anderson [continuing]. Humvee coming off the 
assembly line and the level two, the add-on armor. We know we 
have stretched that Humvee to its limits.
    Simultaneously, we have been working with the Marine Corps. 
We are walking side by side with the Marine Corps on the MRAP, 
the mine-resistant ambush protection. You know, the Marine 
Corps is going to be purchasing up to about--the Navy is buying 
up to about 4,000 vehicles. We have got an option to buy up to 
about 2,500 of these vehicles.
    And testing is going on in the next month to pick that 
best----
    Mr. Taylor. Okay. General, if I could----
    General Anderson. Yes, sir.
    Mr. Taylor [continuing]. Off the top of my head, there will 
be 20,000 Humvees in Iraq.
    General Anderson. Yes, sir.
    Mr. Taylor. Even if you bought the 2,500 by the 1st of next 
year, that still leaves nine-tenths of them vulnerable. And we 
went through this with up-armor.
    It took entirely too long. I don't know how many funerals 
all of us went to that could have been prevented----
    General Anderson. Yes, sir.
    Mr. Taylor [continuing]. Had we addressed that threat 
sooner. Now, I don't know if it had something to do with the 
previous secretary of defense being in denial about what was 
happening in Iraq, but I hope the rest of us aren't in denial 
that this is where the majority of American kids are getting 
killed.
    So I was pleased to hear that the Marines have hopefully a 
crash program to have about 4,000 vehicles in inventory by the 
1st of next year.
    General Anderson. Yes, sir.
    Mr. Taylor. What is the Army doing?
    General Anderson. Sir, we are having--in the near term is 
to have up to 2,500. We are starting to deliver by this summer.
    Simultaneously, you know the JLTV, the joint light tactical 
vehicle, it is projected to be out to 2012. We think that is 
unacceptable. We are working with the Marine Corps to bring 
that technology back.
    As we are producing MRAPs and we are sending MRAPs to the 
theater to augment the current Humvee fleet, we want to 
accelerate JLTV to the rear, accelerate that technology. And if 
we see one of the vehicles we like, we want to fill that. We 
want to get it to our soldiers.
    We join you in those concerns with the up-armored Humvee 
and the attacks they are taking, and we want to get the best 
equipment to our soldiers.
    Mr. Taylor. General, in the past couple weeks, I have had 
the Navy come to me with screw-ups on the Littoral Combat Ship 
(LCS), the Coast Guard come to me with screw-ups on the 
stretching of the 110 and the national cutter.
    Do you not have the tools to hold industry accountable? Is 
there something that Congress needs to be doing differently on 
the contractual side, on the legislative side, that would give 
folks like you that we delegate this responsibility to and give 
the dollars to--but you have actually got to make the purchase. 
Do you need some additional tools to hold them accountable?
    Because what is going on is unacceptable, and it seems to 
be across the board, in more programs than not. And I am asking 
this and offering that we want to help. And if it takes a 
legislative fix, I would like to know what you need to make 
this happen.
    General Anderson. Yes, sir.
    Mr. Mullins. Sir, I think I need to answer that for us. And 
the answer is, of course, we continuously evaluate the tools we 
have to enforce the contingencies in the requirements in the 
contracts we have with industry and the industrial base.
    We believe we have the right tools today to enforce the 
contracts, to get the development that we need in the process 
right now today. We think we are exercising that in the Army 
programs that we are developing, and we believe that on the 
whole we do well.
    When we find a problem, we attempt to correct it 
immediately.
    Mr. Taylor. Thank you.
    General, going back to the MRAP----
    General Anderson. Yes, sir.
    Mr. Taylor [continuing]. When you said 2,500, that is 
obviously one out of 10. So my question to you is are you 
deciding to replace one out of 10 because of a lack of funding, 
because of a lack of industrial base? Why have you set a goal 
of only 10 percent of the force over there?
    General Anderson. Well, sir, that is just the initial buy. 
When we see a----
    Mr. Taylor. Okay. Again, but why did you pick that number? 
Do you need more money from Congress? Is it something that is 
within the Pentagon? Why did you pick 10 percent?
    General Anderson. Sir, that was part of a joint operational 
needs statement that came from the theater identifying what 
they would need, and the number 2,500 was what they sent 
forward.
    Mr. Taylor [continuing]. That happen?
    General Anderson. Sir, we had to reprogram $70 million. We 
reprogrammed $70 million and we can execute.
    Mr. Taylor. You can purchase 2,500 for $70 million.
    General Anderson. No, sir, we had to reprogram to get 
started.
    Mr. Taylor. Are you anticipating funds being in the next 
supplemental for this purpose?
    General Anderson. Yes, sir.
    Mr. Taylor. You have made that request?
    General Anderson. Yes, sir.
    Mr. Taylor. And the dollar amount was?
    Mr. Mullins. It is approximately $500 million for the first 
installment, and then, of course, we expect to have to program 
funds in the future to continue to buy that system or some 
other system.
    The initial requirement is to get an initial--we assess 
whether we want to buy this vehicle we are buying under rapid 
conditions, or do we want to buy something else in a more 
timely manner as we move forward in that development of the 
next system and purchase of the next system that we have.
    And, of course, there is a continual request for funds to 
do that until we reach our goal.
    Mr. Taylor. Okay. Mr. Mullins, I am making a request of you 
for the dollar amount that it would cost to replace every 
Humvee in theater with an MRAP-type vehicle.
    Mr. Mullins. I will provide that for the record, sir.
    [The information referred to can be found in the Appendix 
beginning on page 79.]
    Mr. Taylor. And I would like that within the next 10 days. 
Is that fair?
    Mr. Mullins. That is fair, sir.
    Mr. Taylor. Okay.
    Thank you, Mr. Chairman.
    Mr. Ortiz. Ms. Shea-Porter.
    Ms. Shea-Porter. Thank you, Mr. Chairman.
    I have several questions, please. The first one is that I 
heard yesterday that the National Guard is receiving training 
before they are deployed, but they are also having to wait 
until they are actually in theater for additional training.
    And I just wanted to ask Mr. Solis, is that your 
understanding, and are we putting National Guard troops at risk 
by not having them completely trained on new equipment before 
they are deployed?
    Mr. Solis. I am not familiar with that, so I can't answer 
that specifically. But my understanding is that there are 
equipment shortages that the Guard is still experiencing.
    And from some of the other experiences I have, if you are 
not familiar or don't have the equipment to train on here--for 
example, up-armored Humvees--back at home station, and you 
start driving those in the desert, I mean, they just have 
completely different handling characteristics, so it does 
create problems.
    Ms. Shea-Porter. All right. Thank you.
    I am also curious about who is deciding, General Anderson 
or anybody on the panel, actually, who is deciding if equipment 
cannot be repaired? Is that decision being made by the 
industry? Is it being made by contract employees? Or is it 
being made by military personnel at the depots?
    General Anderson. General Radin will answer that, ma'am.
    General Radin. Ma'am, there are qualified inspectors. In 
many cases, they are depot employees that are forward. Army 
Materiel Command has people in Iraq and Kuwait.
    But as that equipment is retrograded, every one of them is 
first inspected by the unit. The unit maintenance personnel 
make a condition coding on it. That is then verified by a 
qualified inspector, a depot-level employee, and they say yes 
or it doesn't, off of a check sheet.
    And then it is retrograded from the theater if it can be 
repaired. If it can't be repaired, it is disposed of in 
theater. There are some exceptions, like tanks that we don't 
dispose of in theater regardless of them. We retrograde them 
back and dispose of them back here in the United States.
    The goal is to dispose of as much in theater as we possibly 
can. It makes no sense to bring it back here if we can dispose 
of it in theater. But there are certain ones that we will 
retrograde back because of information that you can get from 
the equipment.
    Ma'am, does that answer your question?
    Ms. Shea-Porter. Well, almost. What I am trying to ask you 
is, is industry actually there making a decision with the 
military at the depot?
    General Radin. No, ma'am. That is an inherent governmental 
function that we do.
    Ms. Shea-Porter. Okay.
    General Radin. So, no. There is equipment, though, that we 
repair through contractors, and a good example of this is all 
our engineer equipment. The vast majority of that is repaired 
by the OEM, the original equipment manufacturer.
    So if it is a bulldozer that is going to be reset, it is 
handed to Caterpillar. Caterpillar will reset it. If 
Caterpillar says that it is uneconomical to repair it or they 
can't repair it, they come back to us and say. Then it becomes 
a washout. So in those respects, yes, industry is involved in 
it also.
    Ms. Shea-Porter. I guess what I am asking, more 
specifically, is, is there a chance that some equipment is 
being disposed of that could be refitted and fixed? And is 
there any way that we can account for that? Is there an 
oversight to make sure that we are getting the biggest bang for 
the buck and we are not trashing equipment?
    General Radin. Ma'am, I will give you a good example of 
partnerships that we do. We just learned recently of a 
capability that Caterpillar is doing on being able to recover 
engines that are damaged that we would have washed out.
    And we are partnering with Caterpillar to develop an 
ability to recover those engine blocks and reuse them beyond 
what we would have done in the Army.
    So we are constantly out looking at what industry--and my 
commander, General Griffin, has a very active program going out 
and meeting with industry, seeing what they are doing and 
seeing what we can bring in-house into the depot systems.
    Ms. Shea-Porter. Okay, thank you.
    Also, there is equipment being left right now in Iraq. I 
realize it is being disposed of. And I wanted to ask you what 
the process was, and is there any chance any of this equipment 
is being taken by the enemy and being repaired? Or what is the 
method of disposal in theater?
    General Radin. Ma'am, a good example, let me tell you 
something as simple as tires, unserviceable tires. 
Unserviceable tires are turned into the Defense Marketing and 
Reutilization Service, which is run by Defense Logistics 
Agency.
    Defense Logistics Agency will then sell the equipment to 
approved vendors to buy them. I know in my time in Kuwait, the 
year that I was there, we had 400,000 tires that had built up, 
and we had sold them to contractors, and contractors would take 
them and turn them into asphalt, to physically repair the 
tires, and they were using them all over the world.
    But the equipment is transferred from the Army account to 
Defense Logistics Agency account under the Defense Marketing 
and Reutilization Service, and then they do their rules to 
dispose of the actual equipment.
    Ms. Shea-Porter. Okay. So it could be getting sold to 
contractors.
    General Radin. It could be being sold to contractors, yes, 
ma'am. If it is military equipment, frequently there is a 
demilitarization standard that has to be applied to it before 
it can be sold.
    So in terms of some of the military vehicles, they 
literally get cut up with torches into chunks, and it is just 
sold as scrap metal. And I have seen them take trucks in my 
year that I was over there and just cut them up into pieces 
this big and, you know, five-ton trucks into pieces of scrap 
metal this big and sold as scrap.
    Ms. Shea-Porter. So you have had absolutely no evidence 
that anything that we have brought over has ultimately been 
used against our troops. Is that--
    General Radin. Ma'am, I have no evidence of that. That has 
never come to my attention. I was in theater all of 2004, 2003 
and 2004 in Kuwait. I was not aware of anything. We are very 
cognizant of that fact, and that is why we were so adamant and 
why some of this equipment came back to the United States to be 
disposed of, like the tanks and things like that.
    Ms. Shea-Porter. And my last question--and thank you for 
your answer--is, I am wondering if industry is aware of what 
our needs as a nation are going to be and how far out--and the 
slow response for revamping and providing the equipment that we 
need.
    And I just want you to address that for a moment. I know 
during World War II all of industry was ramped up and seemed 
very productive very quickly and were able to put new 
technology into place.
    And it seems like there is a real drag in time between the 
time that you assess what the needs are and the time that we 
finally get some kind of vehicle or whatever we require in the 
field.
    So how much time are you giving industry? Are you looking 
at what our needs are going to be--for example, we talked 
about, first, they didn't have the Humvees that were upgraded, 
and now we are talking about Humvees actually being very 
vulnerable and waiting for the next technological advance.
    How much time are we giving defense? And what kinds of ways 
are we holding them to that schedule?
    Mr. Mullins. I don't know--the answer is we have a very 
good relationship with industry in that manner, and in some 
cases industry actually leads us.
    We take a look at the commercial products, and those 
products are available, and we apply them almost immediately. 
It is a matter of a few months from when we identify a 
requirement for something to where we are putting it into 
people's hands. Those typically are smaller things that are 
easy to manufacture or they are things that don't have critical 
periods of time.
    There are other things that simply take time to manufacture 
and develop. But we are having a good result. A good example is 
the thing we discussed earlier with the Humvees.
    I don't want to go beat that one to death, but with the 
MRAP program, we have a rapid program with the Marine Corps 
where we are looking at trying to get an immediate response for 
something we can put out in a few months.
    Then we have also behind that a more deliberate program 
looking at meeting fully our long-term requirement inside that, 
and then trying to coincide those two programs so that we 
provide the best available thing for the money that is 
available to our soldiers over time.
    So that is the process that we try to use. The smaller 
things we have, many of the things, if you look at some of the 
things like the little robots that we use to go into places and 
look for IEDs in the places, those things, from the time we 
became aware of a requirement or an ability to use them to do 
that until we put them into service were literally a matter of 
months before we were able to begin equipping the soldiers and 
be able to equip the theater in those things, and many of it in 
less than a year--to other things where they take time to 
manufacture and process, and then some of those have taken 
years.
    Ms. Shea-Porter. Well, I guess I share Congressman Taylor's 
anguish about the process and how long it has been taking. But 
thank you.
    Mr. Solis. I would only add, if I may, we have done some 
work in the past where we have looked at when requirements come 
in and the funding that is laid against it as well as the 
industrial base and the distribution of that, and at least 
early on there were some issues in terms of when that 
requirement would come and when the funding would be laid 
against it to when the industrial base could gear up to that, 
and then the distribution.
    So there are a lot of different pieces of that pie in terms 
of looking at what is holding things up in terms of getting 
things out to the field.
    Mr. Ortiz. Ms. Boyda.
    Mrs. Boyda. Nancy Boyda from the 2nd District of Kansas. 
And I have the privilege and honor of representing Fort 
Leavenworth and Fort Riley, so this is a big deal.
    During the campaign, I got an unexpected amount of support, 
especially out of Leavenworth County--where it is a great 
place, by the way, to retire. Beautiful scenery, you know, a 
wonderful fort there, and a great tradition.
    So unexpectedly, all this support comes out of the 
woodwork. I never asked what anybody's party was, and it wasn't 
a group. It was all individuals saying, ``What can I do to help 
you?'' And I finally said what is going on here.
    And the message was that--these are generals, colonels--
that we have spent our entire lives building this military, and 
we treasure it, and we love it, and we are worried about it.
    And so, with that in mind, that is a lot of the reason that 
I actually got here, from people who are deeply concerned that 
we are getting ourselves to a point where we are not going to 
be able to respond strategically.
    This committee approved $17 billion for the reset. And it 
is my understanding that about half of that has already been 
allocated and used. Is that going to be enough? Are we going to 
be able to get our equipment back with that amount of money, 
the $17.1 billion? Where do we stand with that?
    General Anderson. Yes, ma'am. The $17.1 billion that the 
Congress provided for us for reset, we will execute that this 
year. And we are not coming back this year asking for more 
money for reset.
    What comes out of that force is equipment serviceability 
improves and slight improvement in equipment on hand. But the 
focus of the $17.1 billion is going to increase our equipment 
serviceability.
    I am going to pass this to General Boles to talk about 
equipment serviceability.
    General Boles. Ma'am, the biggest thing it does, when we 
reset, we are resetting equipment we have. A small amount of 
the money goes, as General Anderson talked about, for 
acquisition and procurement.
    But the large majority of it is targeted on either 
recapping or repairing equipment that is redeploying back from 
our forces and giving us that capability. And that really is 
where our key focus is, on doing that.
    Mrs. Boyda. Is the $17 billion going to be adequate? Do you 
anticipate coming back next year and putting another reset 
amount in there? Do you have any idea what you expect that to 
be perhaps?
    General Boles. Yes, ma'am. General Schoomaker, in his 
testimony for reset, stated that he viewed the bill as $17.1 
billion in 2007 and $13 billion, I think $13.1 billion, in the 
years after that, every year after that, to include 2 years to 
3 years after hostilities are over, as Mr. Abercrombie said 
before.
    Mrs. Boyda. Do you have the information, again, from 
Kansas, do you know what percentage of our equipment is in Iraq 
right now? And generally, when can we expect that back, or 
should we expect it back? What do I tell my people back home? 
That is a question I get quite frequently, as you can imagine.
    General Anderson. Ma'am, I can't answer specifically in 
Kansas. But let me try to answer that from the Guard 
perspective. As you well know, before the conflict started, the 
Army National Guard on the average had 60 percent of their 
equipment on hand.
    The equipment they had on hand, a lot of it was older, 
cascaded equipment. That was the conditions that we lived in. 
The budgets were less, so when we had older equipment, we would 
pass it to the Guard because the Guard was a strategic reserve 
at that time.
    But today, they are an operational reserve. They go to war. 
They rotate in cycles with the active component. But from an 
equipping perspective, the Guard is being equipped at an 
unprecedented rate right now. And that is because of the 
funding that Congress has provided.
    Just three areas I would like to share with you. Night 
vision goggles I was talking about just a couple minutes ago. 
In 2006, the Guard received over 8,600 night vision goggles. In 
2007 they are going to receive 12,000. In 2006, they received 
20,000 radios. In this year, we are going to almost double it 
with 38,000.
    If this was 2009, 2008, the older radios, the older night 
vision goggles would have been cascaded to the Guard. But the 
Guard is getting state-of-the-art, modernized equipment.
    Just recently, we had an Army equipping reuse conference, 
and we put the distribution plans in for $10 billion of 
equipment for the Guard. And what that bought the Guard was 180 
tanks, 505 Bradleys--these are modernized tanks and Bradleys--
38,000 night vision goggles, 34,000 M4s, and 17,000 trucks. And 
this is significant.
    Mr. Solis. Congresswoman, if I could offer another 
perspective, as was mentioned, the $17 billion will cover what 
is coming back from Iraq in terms of resetting that equipment.
    There is a larger bill out there in terms of looking at 
what is--in terms of equipment readiness and equipment on hand 
that is a systemic problem throughout the Army today. And those 
dollars don't necessarily cover that.
    And I go back to what I was saying before. It has to look 
at what is the outcome you want to achieve with not only these 
dollars but the dollars that are in the baseline budget. What 
is that going to do to overall equipping? What is that going to 
do to overall serviceability? How is that going to improve 
readiness over time?
    And I think that is the metric, or something close to that, 
because otherwise I think we are going to have these hearings 
where you are wondering why your money is going out and we 
still have shortages.
    And so I think over time there needs to be some 
understanding of what those metrics are and what the measures 
are so there is not a disconnect between your discussions with 
the Army on where you are at.
    Mrs. Boyda. Thank you. What would you expect that 
additional amount to be, then?
    Mr. Solis. I can't give you an exact figure. I have heard 
varying numbers. When the Army went into the war, you know, 
they were short $56 billion in the equipment accounts. But that 
is an anecdotal number. I don't know if that is the right 
number or not. But it was a rather large number.
    And as I mentioned, too, you have APS stocks that are going 
to have to be refilled. The theater-provided equipment which 
doesn't come out of Iraq--once the hostilities are over, I 
mean, you are going to have to look at that equipment and 
whether or not that is going to be usable.
    So there is a lot of potential bills out there. But again, 
I think the key question ought to be is where do you want to be 
in terms of that investment and what is that going to buy in 
terms of readiness.
    Mrs. Boyda. Let me just say two things real quickly, if I 
may. May I?
    With Fort Riley, we are sending our guys over without the 
equipment to train them on. And that is something that I hear 
over and over again. We have got to make sure that we have got 
the equipment there at the fort and get that done.
    The second thing is, too, as we go into the broader 
argument of are we going to escalate this war or not, people 
really want to know what are we going to be left with. How are 
we going to respond to a strategic--any kind of a strategic 
need?
    And so looking at the entire picture, the nice thing is at 
this point that the military--and this is good for Kansas. The 
military is held in such high regard. I just want to make sure 
that that stays that way and that there is a real clean 
understanding of what we are getting ourselves into, and the 
military keeps its, as my mother would say, keeps its nose 
clean in that regard.
    So let us know what it is that the whole story is, and we 
will work with you on that. Thank you.
    Mr. Ortiz. We are going to have a series of votes in the 
next 5 minutes, but you mentioned that the $17.1 billion would 
be sufficient for this year, that there might not be a need for 
you to come back.
    But I think that this figure, the $17.1 billion, was before 
the surge. Am I correct?
    General Anderson. Yes, sir.
    Mr. Ortiz. Now we are going to have 21,500 troops going 
into Iraq, plus somebody estimated that maybe 400 Humvees for 
every brigade that would be going to Iraq. So do you think we 
can still hold the line for the $17.1 billion even though we 
are having this surge?
    General Anderson. Sir, when we started doing our 
assessment, the reset task force looked at that, and we believe 
that it will have a slight impact on $17.1, but we are not 
going to come back and ask for more money.
    We think the impact will be in 2008, because you will have 
units that are extending. You could have some equipment that 
would go into 2008. So the requirement in 2008--we are 
anticipating that might go up.
    Mr. Ortiz. Will there be a carryover of work? And if so, 
how much carryover will there be?
    General Radin. Yes, sir. Right now we are looking at 
carryover. Right now we think it is going to be below the 
threshold that has been established for carryover. The 
leadership of Army Materiel Command is constantly working on 
pulling programs to the left.
    My deputy commanding general, Lieutenant General Mortensen, 
is out today with a team visiting depots, and the effort is 
going to be pulling the work to the left. But our initial 
assessment on carryover is that we are not going to see the 
threshold on it right now, Chairman.
    Mr. Ortiz. Thank you. We are going to have a series of 
votes.
    Mr. Chairman.
    Mr. Abercrombie. We are going to come back. I regret this, 
that we have to go and vote on resolutions of absolutely no 
consequence whatsoever. Unfortunately, the change in the 
majority hasn't meant that we don't do the same stupid things.
    I don't want to surprise you. Are you familiar, General 
Anderson, and are you familiar, Mr. Solis, with the Department 
of Defense Office of Inspector General report of the 25th?
    General Anderson. Yes, sir.
    Mr. Abercrombie. Have you had a chance to look through it?
    General Anderson. Sir, I looked at the executive summary.
    Mr. Abercrombie. Okay. Do you have it with you?
    General Anderson. No, sir.
    Mr. Abercrombie. We can get you a copy, because I don't 
want to throw any surprises. I want to cite it in the context 
of some questions and observations to you----
    General Anderson. Yes, sir.
    Mr. Abercrombie [continuing]. When we get back, okay?
    General Anderson. Yes, sir.
    Mr. Abercrombie. I have a copy of the executive summary 
here----
    General Anderson. Yes, sir.
    Mr. Abercrombie [continuing]. And I will have it provided 
for you, all right? Is that okay?
    General Anderson. Yes, sir.
    Mr. Abercrombie. Thank you.
    Mr. Ortiz. The committee is going to recess until we finish 
voting, which will take about 20 minutes, 25 minutes, and then 
we will come back, and several of the members have other 
questions to ask.
    So just bear with us for a few moments. Thank you so much.
    [Recess.]
    Mr. Ortiz. This hearing will come to order.
    There was a page, page 5 of the statement, which says that 
to overcome the equipment challenges facing the Army, we have 
moved rapidly to restore better losses and repair equipment 
through an aggressive reset program, despite entering the war 
with at least $56 billion equipment shortfall.
    I was just wondering how did somebody come up to that 
figure of $56 billion shortfall.
    General Anderson. Mr. Chairman, the $56 billion shortfall 
were the holes that we had before the conflict started. These 
holes range from radios, trucks, weapons.
    And then we looked at the equipment that we needed for 
Iraq, what were the shortfalls that we had before fighting this 
war. And those were things like up-armored Humvees, our route 
clearance equipment, our counter-IED devices.
    So those were the holes that we had before we started this 
conflict.
    Mr. Ortiz. You know, this is very, very serious when we 
talk about equipment and the things that the Army troops need, 
because we want to be sure that when they go into harm's way 
that they have, you know, what they need, not only armored 
equipment but vehicles and tanks and stuff where they need to 
move around.
    But, Mr. Solis, do you have any thoughts on the questions 
that I asked about the $56 billion?
    Mr. Solis. As I said before, it is a number that has been 
tossed around. I don't have any basis to say whether that is a 
good number or a bad number. But the Army has consistently 
mentioned that number throughout in terms of its shortage of 
dollars for equipment.
    Mr. Ortiz. Thank you, sir. It looks like we are going to be 
disrupted most of the day today. We seem to have another vote. 
But we have another 5 minutes to 10 minutes.
    And, Chairman Abercrombie, do you have a question?
    Mr. Abercrombie. What is the vote?
    Thank you for your patience. We are grateful. Have you had 
a chance to take a look at the executive summary? Everybody? 
Good.
    In the context of the recommendations--and when you look at 
the results, talking about mission essential equipment list and 
so on, a tracking system there, does the inspector general, in 
referring to the tracking system, is that a tracking system 
just in terms of the logistics? Or does it mean a tracking 
system in terms of following the money, or does it mean both? 
Because it then refers to four steps within the process.
    General Anderson. Sir, thank you again for letting us look 
at the executive summary. We looked at it----
    Mr. Abercrombie. Understand, I am not trying to trick you 
or any of those kinds of things.
    General Anderson. Oh, I understand.
    Mr. Abercrombie. That doesn't do us all any good.
    General Anderson. Yes, sir.
    Mr. Abercrombie. That is not what this is about.
    General Anderson. Sir, I really don't know. Not having the 
rest of the report to see what tracking system they are talking 
about, it would be very difficult.
    Mr. Abercrombie. Okay. Well, then let me rephrase it for 
myself and say what I would like to see it mean, tracking 
system.
    And perhaps, Mr. Solis and Mr. Mullins, you can think about 
commenting.
    There are two elements here, as far as I am concerned, in 
trying to figure out what the right thing to do vis-a-vis this 
next budget proposal authorization and dealing with the 
supplemental proposal that is going to be before us in a way 
that advances the interests of the Army.
    First, we have to be able to follow it in terms of an 
accurate financial system. You know, tracking that way, 
tracking the finances, tracking the expenditures from all of 
these various budgets which come at different times.
    Parenthetically, one of the difficulties of having this 
supplemental budget process is that it tends to come way 
after--in fact, your testimony speaks to this, in effect--is 
that it is one thing to propose a supplemental budget to the 
regular budget cycle process, but it gets proposed at some time 
down the line.
    It gets dealt with some time down the line. And it gets 
implemented some time down the line. So it tends to distort, 
then, manufacturing times, delivery times, et cetera. Would you 
agree?
    General Anderson. Yes, sir.
    Mr. Abercrombie. So the tracking, then, that I am talking 
about is by definition a difficult process or a multilayered 
process. So that is the one thing. We have to track it 
financially.
    Then the other thing is tracking the actual implementation 
of the budget and the actual delivery. For example, you 
mentioned, General, that you are looking at, if I have this 
right, 1,500 units with the 2.5-ton to 5-ton trucks for a June 
completion date.
    Now, I assume that they are not going to just do 1,500 at 
once and they appear in June. There is some kind of a monthly 
delivery system. But is it to be completed by June, for 
example? Or is that when it is to--or it is in the middle of 
it? Then when does it get delivered?
    This was in the context of trying to answer a question 
started by Mr. Cole and followed up by others about how many 
vehicles of this kind and others were going to be needed in 
theater in conjunction with this surge.
    So it is not too difficult for me to see the difficulties 
you would be facing, the challenge you would be facing, in 
trying to make good in all of this fiscally as well as 
logistically.
    General Anderson. Yes, sir. In the tracking system I 
believe you are referring to--is when an organization needs 
equipment, there is a--let's say an organization gets a change 
of mission or they get to theater, they do their reconnaissance 
before they go, and they come back and they say we are going to 
need an adjustment to our equipment.
    That is called an operational needs statement. And in fact, 
we have an automated tracking system that we implemented in 
October of 2006 that tracks those requests in an expeditious 
manner so they are----
    Mr. Abercrombie. That is good, so you should be able to 
give it to us, then, for this 2008 cycle in the context of this 
surge and continuing operations.
    General Anderson. Well, these are for specific items of 
equipment----
    Mr. Abercrombie. Okay.
    General Anderson [continuing]. That unit commanders need 
above and beyond the mission essential equipment list that is 
required for their mission. There is not a budget----
    Mr. Abercrombie. Do you know whether the inspector general 
is taking that system, October 2006 system, into account?
    General Anderson. See, I am not sure, sir. When I look at 
the executive summary, I am not sure of the timing. I don't 
know if it was before the automated system or after. I would 
assume it is probably before.
    Mr. Abercrombie. Excuse me. I am sorry, I have got two 
things going on here.
    I am going to continue on, then.
    Mr. Ortiz. We are going to remain, and I think our 
constituents understand that what we are going through is very, 
very important--not that this vote is not, but I think we are 
going to stay here and go through the testimony.
    Mr. Abercrombie. Okay, go ahead.
    General Anderson. And, sir, when I look at the executive 
summary, I really can't give you the analysis on what tracking 
system they are talking about until I read the full report.
    Mr. Abercrombie. Okay. Well, then, as I say, let's use what 
I am talking about, then, that that is what I mean by tracking. 
And I am guessing that it is somewhere along those lines.
    How do we do it, the fiscal, because we have got to make a 
recommendation. We are trying to work with the appropriators to 
try and do the right thing here. And we want to do it in such a 
manner as to minimize the requirements to come to us later and 
say, Jesus, you know, this is what we need to have now, and we 
couldn't anticipate it, and we need more funds.
    Mr. Mullins. Well, let me try to address I think what you 
are referring to--two things here. One is we do have a system 
that tracks funds as they are appropriated to ensure that they 
get executed as appropriated.
    Mr. Abercrombie. That is right.
    Mr. Mullins. But I don't think that is the question you are 
asking.
    Mr. Abercrombie. Encumbering the money is not my question.
    Mr. Mullins. As I say, I don't think that is the question 
you are asking, did we get funds appropriated, did we spend 
them for what they were appropriated.
    Mr. Abercrombie. Did we get, then, delivery----
    Mr. Mullins. Right.
    Mr. Abercrombie [continuing]. In a meaningful way for the 
mission that is being required of the troops?
    Mr. Mullins. Right. And we have a way, we think, that does 
that, particularly--and as Congress has shown greater interest, 
we have shown greater interest in it, of course.
    Now, on the other hand, I think the other question you are 
asking is how do I forecast the requirements for that. We have 
a process where we attempt to take a look at the forces we are 
going to use, the forces that are going to affect--for the 
equipment.
    General Anderson and I co-chair the group that tries to 
look at--given the missions that we are told the Army is going 
to execute and what equipment will they need, and it is new 
equipment to fulfill that mission over time, and then given the 
budget that we have, how can we procure those systems.
    And we use pretty much the same system as we look at the 
normal course of action business and the base budget and as we 
have looked at what has traditionally been put in the 
supplementals. As long as we can forecast the actions, then I 
think that we do a pretty good job of determining what the 
Army's requirements are going to be.
    It is when we have to deal with an unforecasted action or 
we have to react that we begin to have those other problems.
    Mr. Abercrombie. Well, let me ask you, then, Mr. Mullins, 
has the administration--look, I am opposed to this surge, but 
that is a political question. Believe me, the last thing I want 
is the Army involved in making political statements or 
commenting on political activity.
    But has the administration, then, taken into account what 
it is proposing? Because we haven't finished the budget yet, so 
we can do that. This surge is not going to be put into a 
supplemental budget, I hope.
    Mr. Mullins. To the extent that we have had knowledge of 
this, lead time, we have provided for that in the request the 
Army has prepared in the fiscal year--the Army has set forward 
for fiscal year 2008.
    Mr. Abercrombie. So there has been a readjustment to the 
budget proposal to us? I mean, has there been a readjustment in 
the budget that will come to us, what, in five days, four days?
    Mr. Mullins. That is a question I really can't answer, 
because it is beyond our ability----
    Mr. Abercrombie. Can you find out----
    Mr. Mullins. We will find out----
    Mr. Abercrombie [continuing]. And let us know?
    Mr. Mullins [continuing]. And let you know.
    [The information referred to can be found in the Appendix 
beginning on page 77.]
    Mr. Abercrombie. Because, believe me, we are not going to 
have a situation, at least as far as this chairman is 
concerned--and I believe it is the position of the majority, 
certainly it is the position of Chairman Skelton, that we want 
to put out our authorization bill and our budget on time.
    We want to work with the appropriators on time so that you 
can have every confidence of being able to begin your 
expenditures on October 1st and that you will know how much 
funds you are going to have between now and October 1st. That 
is the least we can do if we are expecting people to go out and 
put themselves, as is always said, in harm's way.
    What is going to harm them more than anything else is to 
have a cluttered, ambiguous, disjoined and dysfunctional budget 
process that you folks, General Anderson and others, are going 
to have to constantly scramble to try and decipher.
    Is that a----
    Mr. Mullins. Sir, that is a fact.
    Mr. Abercrombie [continuing]. Fair summary?
    Mr. Mullins. If you ask me for the one thing Congress can 
do for me as the guy responsible for the production aspect, it 
is tell me on October the--so I know on October the 1st what I 
am going to have to execute for that entire year's budget.
    Mr. Abercrombie. Okay. Then you have to help us. That is my 
whole point. That is the whole----
    Mr. Mullins. Yes, sir.
    Mr. Abercrombie [continuing]. The whole reason for these 
inquiries here, as I say, is not to point fingers or get into--
I mean, I don't want to get into political arguments. I don't 
want to get into a political argument with you, Mr. Mullins.
    The best way that I can proceed on my section of this with 
Mr. Ortiz is to be able to state with certainty to members of 
the House, regardless of party, that we have a clear idea of 
what is required for you in terms of budget expenditures--
equipment, personnel, training, et cetera--and that this is the 
result of sober and serious consideration as to what that is.
    Then we can deal with the politics of it. So that is why we 
need this information.
    Mr. Mullins. Yes, sir.
    Mr. Abercrombie. Right now I don't have it clearly in my 
mind as to what the final numbers are. For example, again, 
looking at what the summary says and what is in the testimony, 
like equipment left in theater for the Iraqi forces or to deal 
with it.
    We are equipping them. You know, if we intend to make this 
surge work--and I am speaking now in a context of having been a 
probation officer at one time in my life, working at a police 
station, starting my working day at booking desks.
    Now, we are taking soldiers and we are putting them into 
neighborhoods and having them work out of police stations. Now, 
again, you don't have to comment on this.
    I don't think that is what soldiers do, and that is 
essentially police work there, and it at least implies that 
there is a civic structure in place of arrest, prosecution, et 
cetera, where the community can be protected, where security 
there is at the community police level.
    But that said, if that is what is required of them, then 
that means you are going to have to be working with either the 
Iraqi national police, the local police, or Iraqi forces--the 
equivalent of the National Guard or however it is developing 
there.
    And that means they are going to have to be equipped. That 
means they are going to have to be trained. And it means they 
are going to have to be able to communicate with one another. 
Now, presumably, we are providing that.
    But the information that I am getting here is that American 
military equipment is incompatible with a lot of Iraqi military 
equipment, some of which comes as far back as old Warsaw Pact 
materiel, and that the logistics and the maintenance systems 
and the capacity for them to reset themselves is not there.
    Now, how are we going to handle that in the budget proposal 
that we are supposed to put forward? Are they doing cross 
leveling? Are you doing cross leveling with the Iraqi forces?
    General Radin, you understand why I am asking the question, 
because it has very serious implications for your soldiers, 
right, and very serious implications for what we say those 
soldiers are doing in terms of their mission in order to 
accomplish stability in Baghdad, at least, let alone in Iraq 
generally.
    So if something as fundamental as the logistics of 
equipment sharing or resetting for the Iraqis is not well-
understood, and the fiscal implications are not well-
understood, the rest of it is going to be in serious danger of 
distortion.
    General Radin. Chairman, let me tell you what we are doing 
toward some of the end of what you speak there. Army Materiel 
Command has been working in theater to help plan and develop a 
national logistics system for the Iraqis.
    We have had depot planners in theater for about the past 
nine months that have worked up a detailed plan to stand up the 
Taji national depot system or reinvigorate it from just empty 
buildings, to give them the fundamental abilities to repair and 
sustain their forces.
    We are working in partnership with Defense Logistics 
Agency, who is working on the repair parts and a distribution 
system. And again, that team has a detailed plan. We are doing 
the same thing for the Afghanis.
    Mr. Abercrombie. Is that accounted for in the budget that 
will be proposed?
    General Radin. It is in the----
    Mr. Abercrombie. Mr. Solis maybe can help you.
    General Radin. Well, that piece of it is in the Iraqi 
military budget, and they are the ones that are going to be 
funding that, Chairman, on that piece of it, because I know 
that we did the planning process.
    And frankly, I am not in theater, but I know that they had 
to get the approval of the Iraqi ministers associated with that 
for the expenditures of funds for standing up those depots.
    So the best that I can--our piece of it is the planning of 
it. We are doing that. It is not a large team. It has been four 
specific individuals that have been in there building----
    Mr. Abercrombie. Do you have confidence that they will be 
able to deliver on their commitment?
    General Radin. What we have been working with Manstiki is 
for them to do a contract to have an execution of these plans, 
so I think we have got a very good plan. And it is the 
execution of it that is going to be important.
    And we have been working with the team and multi-national 
force-Iraq and Manstiki on them having a contractor execute 
that, preferably a contractor in theater, an Arab contractor, 
because it is an Iraqi capability, not a U.S. one.
    Mr. Abercrombie. I understand, and I appreciate that. And 
please understand the context that I am speaking to you. And 
when I did a paper for myself before we went into the initial 
invasion, in a frontispiece--I took Mr. Keegan's book, the 
First World War, which I am sure you are familiar with, and the 
frontispiece of his book is, in capital letters, ``Armies Make 
Plans.''
    And underneath it, I wrote something that has always kind 
of guided me in politics, is that, ``Everybody has a plan till 
they get hit,'' which was said by Rocky Marciano, the 
undefeated heavyweight champion.
    And so I don't dispute for a moment--in fact, my respect 
for the thoroughness and the capacity of the Army to make 
plans--believe me, I hold you in the highest regard in that.
    What I am asking, though, is do you have confidence as to 
whether or not those plans which have been put forward are 
going to be able to be implemented in the context that we are 
speaking of today. Do you have confidence in that?
    General Radin. Chairman, I would tell you that I have got 
confidence----
    Mr. Abercrombie. Your military opinion. I am not asking you 
about the politics.
    General Radin. I have got confidence in the commitment of 
the individuals that we are handing this plan over to for 
execution.
    Mr. Abercrombie. Okay. That answers my question.
    General Radin. And, Chairman, that is the best I can----
    Mr. Abercrombie. I appreciate that.
    General Radin [continuing]. I can do for you.
    Mr. Abercrombie. You deserve your ranking. Really. That is 
a good answer.
    Mr. Mullins, do you want to comment on that? I can beat you 
up on politics.
    Mr. Mullins. Well, unfortunately, we are professionals, not 
an appointed position.
    Mr. Abercrombie. No, no, I understand.
    Mr. Mullins. But no, I agree with General Radin. We have a 
good group of people, and we think the people we are dealing 
with there are dedicated, and I am speaking now for that 
portion that works directly over there in support of actually 
the AMC activity.
    Mr. Solis. I would only offer we have done some work in 
looking at the setup of the Iraqi support forces over there in 
terms of logistics, command and control and intel. We have done 
work up at Taji.
    One of the things that is out there is a national 
maintenance contract that I believe is due to run out at the 
end of March, I believe. And then it wasn't clear as to where 
that might be going after, whether the contract was going to be 
extended or whether it was going to be turned over to Iraqi 
Security Forces (ISF) forces.
    But I think there are a number of challenges in terms of 
developing those capabilities that still exist in terms of 
training the forces.
    Mr. Abercrombie. But will they be using our equipment?
    Mr. Solis. I can only tell you----
    Mr. Abercrombie. Let's suppose for argument's sake or 
conversation's sake that they work this through and that the 
ministry of interior and the ministry of defense there are able 
to get capable people there who can put it forward.
    Now, my question is that in the context of all these 
hurdles that at least you have outlined today of trying to get 
just the basic equipment there for replacement, let alone for 
adding in addition, how is that going to work? Because it would 
seem to me you are starting off from way behind the figure you 
would like to be at.
    Mr. Solis. I can only tell you my understanding is that the 
training that the Iraqis are doing is to repair their 
equipment. It is not to repair U.S. equipment.
    Mr. Abercrombie. No, but I am talking about if we deliver 
equipment to them, American equipment, in addition, isn't that 
part of the surge situation? It is not just to deal with 
repaired equipment. Aren't we supplying them?
    I am speaking about the Baghdad surge now. My understanding 
is that that part of the 1,500 vehicles that General Anderson 
was talking about, and so on, is to be part and parcel of this 
surge, five-brigade addition. I am using it as a case in point.
    General Radin. Chairman, there is a command in Army 
Materiel Command, United States Security Assistance Command, 
that is responsible for executing foreign military sales and 
foreign military support.
    They are working a number of cases associated with 
supporting the Iraqi forces. I am personally not aware of a new 
requirement or a new case. I talked to General Anderson, who 
commands that, yesterday. I told him I was coming up here. I 
asked him to give me a brief update on it.
    I am not aware of specifically a new case pending out there 
for sale of additional vehicles. I do know that we have various 
types of Humvees that we have sold them, various types of 
Humvees up there that they have.
    I do know that there has been training associated with 
sustaining those Humvees. I know when I was in Iraq or in 
Kuwait a while back, there was a number of 2.5-ton trucks that 
were sold to the Iraqi government along with repair parts to 
sustain them.
    So I know from that aspect of it of what we are executing. 
But I can't give you an informed discussion right now or answer 
of where we are for the long-term sustainment of that, other 
than the fact that I know that there are plans in place to 
sustain and give repair parts and manuals and things for that 
equipment.
    Mr. Abercrombie. Yes, for the equipment. We are not going 
to be selling them Humvees. I mean, we are not going to be 
giving them vehicles that could be--I will ask you that. We are 
not going to be doing that.
    General Radin. I am not aware of a pending foreign military 
sales case right now, Chairman.
    Mr. Abercrombie. Well, okay. Then what are we doing with 
this surge? What the hell is the object of it? What is the 
transition plan for this surge to having the Iraqi forces be 
able to sustain security in the neighborhoods in the Baghdad 
area that we are preparing the budget for now?
    Surely that is a fair question, General Anderson.
    General Anderson. Chairman, we will get into the 
operations, and right now, you know, we are probably going to 
have to come back and provide that on the record, because that 
is in the operations realm, more in the theater operations, as 
opposed to reset, so----
    Mr. Abercrombie. Okay, that is fair. I will accept that. 
But that is what has to come in this budget that is going to be 
presented to us next week. That is what I am driving at. I am 
not trying to make your life difficult. Quite the opposite. I 
am trying to figure out what are we expecting of the soldiers 
that we are sending there, and what is the plan, if they 
execute this operation in the neighborhoods, I simply want to 
know what is the object of it.
    I am told it is to provide security. Well, I understand 
that, and I understand it very, very well. I understand what 
security is all about. I mean, I chaired the committee that 
handled the police department, for example.
    I mean, I have got a long and checkered career on the 
political side of administering police forces and involving 
myself with community policing, et cetera.
    I simply want to know, for budgetary purposes, for you, 
what do I have to put in the budget recommendation in order to 
sustain the Army in its mission and plans for this next year so 
that you don't have to have somebody come up short and that 
they are going to be printing stories in the paper that you 
lack equipment and all the rest of it. I assure you, that is my 
goal.
    So maybe you have got to take back, you know, today to them 
to make sure when that budget comes to us that they take into 
account not just what the surge is going to be and what we need 
to do for reset, but resetting in a context in which we know 
there is going to be an expenditure of funds and equipment and 
utilization of equipment in this surge, presumably with some 
kind of transition plan to the Iraqis being able to sustain 
security.
    General Anderson. Yes, sir, we will take that.
    Mr. Abercrombie. Okay.
    I have taken a long time for this Mr. Chairman, and I 
appreciate it. But you understand why I have had to go through 
this. That is what these hearings are for, to try and elicit 
what we need to know in order to make decisions that will 
benefit the fighting men and women in our armed forces.
    Mr. Ortiz. The chairman has asked very, very good 
questions, you know, that we need to find out. Now, this is the 
time, between now and when the budget comes, this is when we 
need to work together. I mean, this is our sons and daughters 
who are there.
    And I agree with him. We need to see what input we can give 
so that we can have a budget that is fair, reasonable, that our 
soldiers will have the equipment that they need. This is one of 
the reasons why I asked before that the $17.1 billion was 
before the surge.
    So of course, we haven't seen the budget proposal from the 
president yet. When we see it, I am pretty sure that most of 
us--we want to work with you. We want to give you--it is not, 
you know--some people say that we have huge expenses, which we 
do, in this war. But I am more concerned with protecting our 
soldiers who are in harm's way, that they get the equipment 
that they need.
    Because at one point I heard somebody say that there is a 
good possibility that they will have to share vehicles. Can you 
enlighten me? Is that a fact, that because we won't be able to 
get all the vehicles at one time--of course, we won't be 
getting all the brigades there at the same time, but do you 
think that this might be a problem that they are going to have 
to share equipment?
    I know that when they come back they leave their armor 
behind. Am I correct when I say that?
    General Anderson. Sir, for the up-armored Humvees, the gun 
trucks, the trucks that they use when they go out on combat 
operations off the forward operating bases, every brigade, to 
include the units that are involved in the surge, have their 
complement of up-armored Humvees and all the accouterments that 
go with those up-armored Humvees, whether it be situational 
awareness, counter-IED devices, crew-served weapons, night 
vision capability.
    All that capability, sir, is going to be there. And as I 
mentioned earlier, there is a challenge. There is a challenge 
that we have got to work the add-on armor for those heavy and 
medium tactical wheeled vehicles. These are more the supply 
logistics types of vehicles that--we have got to get add-on 
armor for these trucks and get them to theater.
    That is what I was referring to about getting these 
vehicles starting in June. In the interim, there is about 7,000 
of these vehicles in theater right now. I mean, there is a lot 
of equipment over in theater as part of theater-provided 
equipment.
    These 7,000 vehicles have the add-on armor. These are the 
large trucks used for supply. They are going to have to cross 
level just to mitigate this shortfall that we have right now.
    Mr. Ortiz. Are you providing any input as the budget is 
being prepared from the DOD or the secretary of defense to come 
to you and ask you, you know, what do you think about this 
budget, what do you think that needs to be included? Have you 
had that kind of input?
    Mr. Mullins. Yes, I believe that, you know, we have been 
contacted. We have begun to do that. Of course, some of this 
was relatively short notice with this decision. And we have 
been taking the actions to react to that.
    Now, one of the critical things, probably, that you can do 
to help us on that--and I am taking you at your word--is, you 
know, we are preparing a reprogramming to deal with some of the 
necessary minor adjustments that we are going to have to make 
to get things there a little quicker.
    And that should be on its way to you now. And that includes 
such things as the earlier-mentioned mine-resistant vehicle and 
some other adjustments that allow us to accelerate some of the 
things that have been planned for procurement with funds that 
were to come in the fiscal year 2007 supplemental that was 
planned that--we need to move that forward so that we can 
execute it now.
    So that reprogramming is on the way. That is what we need 
to do to be able to address the things in the short term that 
we can do so that we can have the things that we are saying 
about every soldier gets what he needs. I hope that kind of 
answers the question.
    Mr. Ortiz. Thank you, sir. It looks like we have some more 
votes coming up. I will probably submit some questions for the 
record. Chairmen like to do that, because it is going to be 
like this for most of the day. Thank you so much.
    Would you like to add something?
    Mr. Abercrombie. Yes. Just at the conclusion, you 
understand where I am going, where we are going, and I can 
assure you I am not the only one that wants to get this done 
this way. What we are requesting of you--and then we will 
handle the politics of it afterwards--is that we have notice 
from you, an accurate financial system to track the reset cost.
    That is what we want. We want to know what it is you are 
doing in that regard so that we can adjust our budget 
accordingly and be able to get ongoing information.
    And we want to know the relationship of what has been done 
in the past, what this continuing resolution we are going to 
pass has to do with--and how it will affect the budget, and we 
want this so-called surge implemented in budget terms in the 
budget that is presented next week.
    We do not want to have a situation like happened last year.
    And I will conclude with this, Mr. Chairman.
    Some of you may have been here. I don't know whether I 
mentioned it already. I made a motion to actually pay for the 
war, an astounding proposition, apparently, to say that, you 
know, if we are going to have a war, why don't we actually tell 
people what it costs, not just in human lives but in treasure.
    And it was rejected on the grounds that we would take it up 
in the supplemental budget. Now, I am not aware of my 
constitutional duty when I thought--you read it out on the 
little plaque in our room out here about the duty of the 
Congress to fund the Army and the Navy, in the original 
Constitution--that we were supposed to have two budgets.
    I thought when we funded the Army and the Navy, the armed 
forces of the United States, that is what we were supposed to 
do.
    I didn't know that we almost did it, and then we come up 
with something called an emergency supplemental budget that 
doesn't count against the deficit and gets involved in all 
kinds of budgetary tricks and accounting tricks to, in my 
judgment, deceive the Nation as to what the true costs are.
    But worse than that, it deceives you. It is kind of an 
enabling device for us to deceive ourselves as to what we are 
really doing with the funding of the armed services.
    And so the object here and the reason we are agonizing over 
this and shaking this tree, this budget tree, so much with you 
today is to try to indicate that we are serious about trying to 
understand what the true costs are in order to be able to 
accurately reflect in the budget document we put forward what 
you need to have in order to do your duty, because you are 
doing it for us, and we want to enable you to do that in a way 
that will do honor to the sacrifice of the people to whom you 
give orders. Fair enough?
    General Anderson. Yes, sir.
    Mr. Solis. If I could offer one thing, again, there has 
been a lot of talk about the dollars. Again, I would only offer 
that as you look at those dollars, what is the impact of those 
dollars? Is it going to improve overall readiness? Is it going 
to improve requirements on hand? What is it going to do?
    Because my sense is that the frustration is that the 
dollars you all are appropriating--doesn't appear that it is 
having an impact. So I think that disconnect needs to be, you 
know, put away in terms of that disconnect.
    Mr. Abercrombie. You are quite right about that, but there 
is also another element in it. What I hope I have made clear is 
that, believe me, it hurts you when there is all these 
accusations and sometimes convictions about fraud; in other 
words, that there is money out there, but that that money is 
being wasted and does not reflect the mission of the soldiers 
that it is supposed to be supporting.
    So we want to make sure that it doesn't go into waste and 
corruption as well. That is what I am talking about when I saw 
we need adequate financial systems tracking to make sure that 
that is minimized or hopefully eliminated entirely.
    Thank you.
    Mr. Ortiz. Thank you so much for your testimony today.
    Now this hearing stands adjourned.
    [Whereupon, at 1:04 p.m., the subcommittees were 
adjourned.]

=======================================================================

                            A P P E N D I X

                            January 31, 2007

=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            January 31, 2007

=======================================================================
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================

             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                            January 31, 2007

=======================================================================
      
                 QUESTIONS SUBMITTED BY MR. ABERCROMBIE

    Mr. Abercrombie. What is the record so far on retrograde of 
equipment?
    General Anderson. Since the beginning of Fiscal Year 2007 there 
have been over 6,100 items retrograded to repair facilities within the 
continental United States. These items include more than 200 track 
vehicles, 1,300 wheeled vehicles and more than 4,600 HMMWVs. All 
retrograded equipment is evaluated and inducted as needed into field 
and national level Reset. Disposition of the equipment is dependant 
upon the condition of each item upon arrival at the various repair 
facilities.
    Mr. Abercrombie. Has there been a readjustment in the budget that 
will come to us to account for the surge?
    Mr. Mullins. There is a limited amount of surge funding that is 
requested in the Fiscal Year 2007 Main Supplemental request. The 
majority of the items in the supplemental are for force protection 
items and logistic systems. This provides the same level of protection 
and logistical support as the units that are currently in theater.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Abercrombie. What is equipment reset supposed to accomplish? Is 
reset funding going only toward battle losses and cost of war? What 
other priorities is funding going toward?
    Mr. Solis. Equipment reset is intended to be a demand-based 
process, focused on operational requirements of the combatant 
commanders, to rapidly return Army materiel to units preparing for 
subsequent operations in order to meet current and future combatant 
commanders' demands. Under the Army's framework for training and 
equipping units for deployments, known as the Army Force Generation 
Model (ARFORGEN), reset begins when units return from their deployments 
and concludes prior to a unit's being made available for subsequent 
missions. According to the Army's fiscal year 2007 reset framework and 
the ARFORGEN implementation strategy, the primary goal of reset is to 
prepare units for deployment and improve their equipment-on-hand 
levels. These reset strategies prescribe a level of equipment on hand 
for units preparing for deployment 45 days prior to their mission 
readiness exercise which is intended to validate the units preparedness 
for its next deployment.
    Reset funding includes more than battle losses and the cost of war. 
As a demand-based process, funding requirements are based on plans for 
resetting equipment returning from overseas theaters in a given fiscal 
year. In addition to meeting these short-term requirements, the Army's 
reset strategy has included funding requests for certain items to 
accelerate long-term strategic goals under the Army's modularity 
initiative. For example, in addition to the Army's planned fiscal year 
2007 national level reset of almost 500 tanks and more than 300 Bradley 
Fighting Vehicles expected to return from the Operation Iraqi Freedom 
theater, the Army intends to spend approximately $2.4 billion in fiscal 
year 2007 reset funds to take more than 400 Abrams tanks and more than 
500 Bradley Fighting Vehicles from long-term storage or from units that 
have already received modernized Bradleys for depot level upgrade. 
These recapitalizations will allow the Army to accelerate their 
progress in achieving a modular force structure by providing modernized 
Abrams and Bradleys to several major combat units 1 or 2 years ahead of 
schedule. The Army believes achieving these modularity milestones for 
Abrams and Bradleys will achieve greater commonality among platforms 
that will enable force generation efforts and reduce overall logistical 
and financial requirements by reducing the number of variants that must 
be supported.
    Mr. Abercrombie. In its tracking and reporting of obligations and 
expenditures, how does the Army differentiate between reset and 
modularity? Is there any overlap between reset and modularity?
    Mr. Solis. The potential for overlap between reset and modularity 
exists. The Army began receiving procurement funds for modularity in 
fiscal year 2005. According to Army officials, while the Army manually 
tracks the execution of modularity funds similar to the way that reset 
procurement funds are tracked, the tracking of reset funds is not part 
of the Army's financial accounting system. Consequently, the accounting 
system captures and reports the data along with all other procurement 
data by commodity, e.g., vehicle, weapons system. The Army's financial 
accounting system does not distinguish between reset and modularity 
funds or other equipment-related sources of funding such as force 
protection. A recent Army report to Congress recognized that ``the 
ability to differentiate between funds earmarked to fill a pre-existing 
equipment shortfall--a modular force requirement--and a force 
protection action addressed in the development of the Army's budget is 
decreasing.'' \1\ The Army further states ``since modularity 
requirements mirror the equipment requirements the Army already 
procures for its units, the ability to precisely track modularity funds 
is lost.''
---------------------------------------------------------------------------
    \1\ Annual Report on Army Progress to House Committee on Armed 
Services, Feb. 14, 2007.
---------------------------------------------------------------------------
    Mr. Abercrombie. Does the Army have accurate financial systems in 
place to track reset costs?
    Mr. Solis. Prior to fiscal year 2007, the Army did not track or 
report obligations and expenditures for reset as a separate program 
within its budget. Because equipment reset was not a separate program 
within the budget, reset obligations and expenditures were grouped 
together with other equipment-related line items in the Operation and 
Maintenance and Procurement accounts. The conference report 
accompanying the Department of Defense Appropriations Act for 2007 
directed the Secretary of Defense to provide periodic reports to 
congressional defense committees which include a detailed accounting of 
obligations and expenditures for appropriations provided in Title IX of 
the act by program and subactivity group. The Army has established a 
subactivity group for reset, and, according to Army officials, 
beginning in fiscal year 2007, the Army has mechanisms in place within 
their financial systems to accurately track reset costs. The Army has 
developed functional cost accounting (FCA) codes to track the execution 
of reset funds within the Operation and Maintenance account and a 
separate manual process through funding authorization documents (FAD) 
to track the execution of reset funds within the Procurement account.
    To track reset funding execution within the Operation and 
Maintenance account, the Army has designated separate FCA codes for 
five specific programs related to reset to capture cost data within the 
Army's financial accounting system. These programs are Army 
Prepositioned Stocks, Depot Maintenance, Recapitalization, Aviation 
STIR, and Field Maintenance. Each of the Army's commands utilizes these 
established FCA codes to record the execution of Operation and 
Maintenance reset funds. The Defense Finance and Accounting Service 
(DFAS) collects this cost data. The Army uses the DFAS data to create 
various reports on the status of reset spending.
    The Army system for tracking reset funding execution within its 
Procurement account differs from tracking within the Operation and 
Maintenance account. The Procurement account is organized by commodity. 
The Army has not established separate codes specific to reset within 
the financial accounting system as they have done for the Operation and 
Maintenance account. DFAS does not collect cost data for the 
Procurement account. Consequently, the Army collects this data outside 
of the existing accounting system. The process for tracking the 
execution of reset funding within the Army's Procurement account 
involves communications with the individual program executive offices 
and managers responsible for the purchase of equipment. Reset 
appropriation funding is designated as such in funding authorization 
documents that are sent to the program executive offices and managers. 
Once the program managers receive these funds, they execute the funding 
according to the specifications outlined in the FAD. The program 
managers update and report back to Army headquarters on the numbers of 
pieces of equipment procured as well as the dollar amounts associated 
for reset on a monthly basis.
    We have not validated the accuracy of the Army's financial 
accounting systems for tracking reset costs.
    Mr. Abercrombie. What are the most significant challenges in 
accomplishing reset?
    Mr. Solis. The Army faces a number of ongoing and long-term 
challenges that will affect the timing and cost of equipment reset. 
These challenges include transformation initiatives; reset of 
prepositioned equipment; efforts to replace equipment left overseas 
from active, National Guard, and Reserve units; as well as the 
potential transfer of U.S. military equipment and the potential for 
continued logistical support to the Iraqi Security Forces. The total 
requirements and costs of equipment reset are unclear, and raise a 
number of questions as to how the Army will afford them. The Army will 
have to make difficult choices and trade-offs when it comes to their 
many competing equipment programs.
    Additionally, the Army continues to be faced with increasing levels 
of operational risk due to low levels of equipment on hand among units 
preparing for deployment. The Army's reset strategies, however, do not 
specifically target low levels of equipment on hand among units 
preparing for deployment in order to mitigate operational risk.\2\ We 
believe that the Army's reset strategies should ensure that priority is 
given to repairing, replacing, and modernizing equipment that is needed 
to equip units preparing for deployment. Although deployed Army units 
generally report high readiness rates, current low levels of equipment 
on hand for units that are preparing for deployment could potentially 
decrease overall force readiness if equipment availability shortages 
are not filled prior to unit's deployments.
---------------------------------------------------------------------------
    \2\ Equipment on hand is a readiness measurement based on the 
quantity and type of required equipment that is available to a unit for 
the execution of the unit's primary mission. Equipment on hand measures 
required levels of equipment against the primary mission for which the 
unit was designed, which may be much different than the unit's directed 
GWOT mission.
---------------------------------------------------------------------------
    Last, as the Army moves forward with equipment reset, it will need 
to establish more transparent linkages among the objectives of its 
reset strategies, the funds required for reset, the obligation and 
expenditure of reset funds, and equipment requirements and related 
reset priorities.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. ROGERS
    Mr. Rogers. How much does it cost per unit to bring back up-armored 
Humvees that are then determined to be washouts?
    General Radin. The Army estimates the costs of shipping 300 up-
armored High Mobility Multi-purpose Wheeled Vehicles (estimated number 
declared washouts) from theater to Red River Army Depot at 
approximately $2.2 million or approximately $7,400 each.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. TAYLOR
    Mr. Taylor. What would it cost to replace every Humvee in theater 
with an MRAP-type vehicle?
    Mr. Mullins. The theater requirement is 18,869 High-Mobility 
Multipurpose Wheeled Vehicle (HMMWV's). It should be noted that there 
is no plan to replace all of the HMMWVs with Mine Resistant Ambush 
Protected (MRAP) vehicles; but to do so would require approximately 
4,294 Category I MRAPs (short wheel base; capacity for six personnel), 
and 14,375 Category II MRAPs (long wheel base, capacity for twelve 
personnel). Note that within each of the above category weight classes; 
there are several mission role variants of the MRAP Vehicle.
    1. The Mine Resistant Ambush Protected (MRAP) program is currently 
in source selection, therefore at this time, we can only provide an 
estimate of the total costs (in millions of dollars) to replace HMMWV's 
with MRAP vehicles:
 
                                                     CAT II
                                          CAT I                 TotalsQuantity                                    4,294     14,375      18,669
Total Cost (Low)                            $4063     $9,208     $13,271
Total Cost (High)                          $7,760    $21,853     $29,523

    2. The estimates provided in paragraph two are based on the 
Independent Government Cost Estimate for the Army requirement for the 
MRAP Program.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. SESTAK
    Mr. Sestak. If you take all the existing brigade combat teams we 
have, and if you were to equip and man them equally, at what percentage 
would they be manned and equipped? If you were able to equip and fully 
man all equipment and all brigade combat teams at 100 percent, how many 
brigade combat teams would be prepared at 100 percent out of the ones 
you have today?
    General Anderson. [The information referred to is classified.]
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. GIFFORDS
    Ms. Giffords. The development of small, tactical UAVs for Army 
battlefield use has provided important new tools for soldiers. Is the 
Army satisfied that it has currently met its requirement for these 
platforms? If not, can procurement be accelerated given the industrial 
base and the evolving technology? How are combat losses of UAVs being 
integrated into the procurement requirements?
    General Anderson. The Small Unmanned Aircraft System, RQ-11 Raven 
B, is meeting its operational requirements and proceeding on a full-
rate production schedule. The Army has been fielding at the rate of 15 
systems per Brigade Combat Team (BCT) each month and has 755 systems 
planned for procurement ending in Fiscal Year 2011 (FY11). The Raven is 
completely sustained via a Performance-Based Logistics Contractor 
Logistics Support contract and combat-loss Air Vehicles are replaced 
with Operations & Maintenance-Army funding.
    The Tactical Unmanned Aircraft Vehicle, RQ-7B Shadow, is also 
meeting all operational requirements. Since FY03 the Army has fielded 
over 50 systems, with the intent to field to all Brigade Combat Teams 
(BCTs), including Special Operation Command and the Army National 
Guard. An FY07 Main Supplemental request of nearly $200 million has 
been requested with the intent to procure and field to BCTs at an 
accelerated rate. A supplemental request for FY08, along with existing 
funding in FY09-11, will allow the Army to meet its Acquisition 
Procurement Objective of 85 systems, and combat losses are currently 
planned with Other Procurement-Army funding.
    Ms. Giffords. In calculating the equipment requirements for Reserve 
Component units in the United States, do you differentiate between 
Reserve and National Guard units? How do you allocate the reset funding 
between these two groups?
    General Anderson. Reset funding provided to National Guard and 
Reserve units is a direct result of the unit equipment that rotated to 
Theater and subsequently requires Reset repair, recapitalization or 
replacement. The FY07 Appropriations Act provides $3.5 billion to the 
Reserve Component to Reset theft equipment.
    The Army National Guard is receiving $161 million for field Reset 
repairs, $187 million for equipment battle losses, $359 million for 
equipment recapitalization and $1.755 billion for the payback of 
equipment left in Theater for follow-on units.
    The Army Reserve is receiving $34.1 million for field Reset 
repairs, $4 million for equipment battle losses, $229 million for 
equipment recapitalization and $745 million for equipment payback for 
equipment left in Theater for follow-on units.
    Ms. Giffords. Given that the National Guard has ongoing homeland 
security missions and may also be deploying more often wider new 
personnel management policies, is the Army going to give Guard units 
priority for reset equipment upgrades that have dual-use for homeland 
security missions, such as FLIR systems on aircraft?
    General Anderson. The Army is committed to equipping its next 
deploying units and follows a rigorous equipping process to ensure that 
each deploying unit has the required equipment needed to deploy and 
train for their deployment. Although the Army does not resource 
equipment specifically for Homeland Defense and Defense Support to 
Civil Authorities missions, it does recognize the priority for National 
Guard units' critical ``dual use'' equipment. The Army Staff and Army 
National Guard have worked collaboratively to identify and prioritize 
approximately 342 critical ``dual use'' items, and the Army works to 
field this equipment first.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. CASTOR
    Ms. Castor. Please expand on the particular pressure on equipment 
readiness, specifically, as you alluded in your testimony to 
``increasing levels of operational risk due to low levels of equipment 
on hand among units preparing for deployment.'' What does this mean in 
terms of the President's proposed troop surge in Iraq?
    Mr. Solis. The Army continues to be faced with increasing levels of 
operational risk due to low levels of equipment on hand among units 
preparing for deployment. However, the Army's reset strategies do not 
specifically target low levels of equipment on hand among units 
preparing for deployment in order to mitigate operational risk.\3\ 
According to the Army's fiscal year 2007 framework for reset and the 
Army Force Generation Model implementation strategy, the primary goal 
of reset is prepare units for deployment and improve their equipment on 
hand levels. These reset strategies prescribe a level of equipment on 
hand for units preparing for deployment within 45 days of their mission 
readiness exercise which validates the units readiness for deployment. 
However, since the Army's reset planning process is based on resetting 
the equipment that will be returning to the United States in a given 
fiscal year, and not based on an aggregate equipment requirement to 
improve the equipment-on-hand levels of deploying units, the Army 
cannot be assured that its reset programs will provide sufficient 
equipment to train and equip deploying units for ongoing and future 
GWOT requirements, which may lead to increasing levels of operational 
risk.
---------------------------------------------------------------------------
    \3\ Equipment on hand is a readiness measurement based on the 
quantity and type of required equipment that is available to a unit for 
the execution of the unit's primary mission. Equipment on hand measures 
required levels of equipment against the primary mission for which the 
unit was designed, which may be much different than the unit's directed 
GWOT mission.
---------------------------------------------------------------------------
    Furthermore, Army unit commanders preparing for deployment may 
subjectively upgrade their unit's overall readiness levels, which may 
result in masking the magnitude of equipment shortfalls. Since 2003, 
deploying units have continued to subjectively upgrade their overall 
readiness as they approach their deployment dates,\4\ despite 
decreasing overall readiness levels among those same units. This trend 
is one indicator of the increasing need for Army leaders to carefully 
balance short-term investments as part of reset to ensure overall 
readiness levels remain acceptable to sustain current global 
requirements.
---------------------------------------------------------------------------
    \4\ Army units assigned directed missions can subjectively report 
their readiness for upcoming deployment using ``percent effective'' 
ratings. These reflect the unit commander's subjective assessment of 
the unit's ability to perform its mission.
---------------------------------------------------------------------------
    We believe that the Army's reset strategies should ensure that 
priority is given to repairing, replacing, and modernizing equipment 
that is needed to equip units preparing for deployment. Although 
deployed Army units generally report high readiness rates, current low 
levels of equipment on hand for units that are preparing for deployment 
could potentially decrease overall force readiness if equipment 
availability shortages are not filled prior to unit deployments. Any 
future troop surge could further exacerbate already low levels of 
equipment on hand and decrease overall force readiness.

                                  <all>

</pre></body></html>
